<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                 DAVID E. PRICE, North Carolina Chairman
 JOSE E. SERRANO, New York          HAROLD ROGERS, Kentucky
 CIRO RODRIGUEZ, Texas              JOHN R. CARTER, Texas
 C.A. ``DUTCH'' RUPPERSBERGER,      JOHN ABNEY CULBERSON, Texas
Maryland                            MARK STEVEN KIRK, Illinois
 ALAN B. MOLLOHAN, West Virginia    KEN CALVERT, California     
 NITA M. LOWEY, New York            
 LUCILLE ROYBAL-ALLARD, California  
 SAM FARR, California               
 STEVEN R. ROTHMAN, New Jersey      
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Stephanie Gupta, Jeff Ashford, Karyn Kendall,
               Jim Holm, Will Painter, and Michael Birsic,
                            Staff Assistants
                                ________
                                 PART 5

                     DEPARTMENT OF HOMELAND SECURITY

             Confronting the Cartel: Addressing U.S.-Mexico
                             Border Security

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 55-704                     WASHINGTON : 2010

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman
 
 NORMAN D. DICKS, Washington        JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia    C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York          RODNEY P. FRELINGHUYSEN, New 
 ROSA L. DeLAURO, Connecticut       Jersey
 JAMES P. MORAN, Virginia           TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts       ZACH WAMP, Tennessee
 ED PASTOR, Arizona                 TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina     ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California  JOHN ABNEY CULBERSON, Texas
 SAM FARR, California               MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois    ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan    DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania         RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey      KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia    JO BONNER, Alabama
 MARION BERRY, Arkansas             STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California            TOM COLE, Oklahoma           
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
 ------ ------                      

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010

                              ----------                              --
--------

                                       Thursday, November 19, 2009.

   CONFRONTING THE CARTEL: ADDRESSING THE U.S.-MEXICO BORDER SECURITY

                               WITNESSES

MARIKO SILVER, DEPUTY ASSISTANT SECRETARY FOR INTERNATIONAL POLICY, 
    DEPARTMENT OF HOMELAND SECURITY
JAYSON AHERN, ACTING COMMISSIONER, U.S. CUSTOMS AND BORDER PROTECTION
JOHN MORTON, ASSISTANT SECRETARY FOR U.S. IMMIGRATION AND CUSTOMS 
    ENFORCEMENT

               Opening Statement of Chairman David Price

    Mr. Price. Good afternoon. In March, this subcommittee 
examined the rise of violent Mexican drug cartels and other 
organized criminal groups and their impact on communities along 
the U.S.-Mexican border. Addressing this threat is one of the 
top priorities of the Obama administration and of this 
subcommittee. So today we will revisit this topic to determine 
how far that effort has progressed and where it must go from 
here.
    Last week, our subcommittee staff visited Mexico City and 
the Texas and Arizona border regions to take stock of the 
administration's progress implementing its Southwest Border 
Initiative. The initiative's goals include securing the U.S.-
Mexican border, working with Mexican law enforcement and 
military personnel to combat cross-border smuggling of illegal 
drugs, weapons and money, and reducing the violence associated 
with this criminal activity. To date, progress can be cited, 
but the overall results are mixed.
    Field and media reports indicate that violence and crime 
related to the cartels remain intense. Just last Friday, 15 
people were murdered in the border city of Juarez, including a 
university professor and a 7-year-old child. The Mexican police 
and military personnel in the border regions are subject to 
constant attack and pressure from the cartels.
    The demoralizing impact of cartel violence touches all of 
Mexico. And while the Mexican Government has worked strenuously 
to combat it, security in Mexico's problem areas has not 
improved as rapidly as had been hoped. President Calderon has 
deployed the military to keep the peace in states and cities 
along the border. However, the Mexican military is not a police 
force and has been criticized for a lack of coordination and a 
lack of capacity to carry out typical law enforcement 
activities.
    Through the State Department-led Merida Initiative, our 
government is assisting Mexican officials to strengthen border 
security and build more robust law enforcement institutions. 
Customs and Border Protection, CBP, has enhanced outbound 
operations and inspections along the southwest border. 
Immigration and Customs Enforcement, ICE, is leading several 
interagency and intergovernmental initiatives, such as the 
Border Enforcement Security Task Force, or BEST, and it is also 
updating interagency agreements with the DEA and ATF to 
strengthen its investigations of narcotics and weapons 
smuggling. And both CBP and ICE are working with State and 
local governments along the border to disrupt and dismantle 
smuggling networks.
    Today, our witnesses will update us on these efforts. We 
welcome Mariko Silver, Deputy Assistant Secretary for Policy at 
the Department of Homeland Security, in her first appearance 
before this subcommittee. Ms. Silver, we are interested in the 
Department's relationships with its Mexican counterparts and 
your assessment of the progress being made by the Mexican 
Government. We are also interested in the DHS role implementing 
the multilateral Merida Initiative.
    We welcome back Jayson Ahern, Acting Commissioner of U.S. 
Customs and Border Protection.
    Another new witness before the subcommittee is John Morton, 
Assistant Secretary for U.S. Immigration and Customs 
Enforcement.
    We look forward to learning how CBP and ICE, through their 
international and investigatory efforts, are helping attack 
cartel networks and organizations, are providing the expertise 
and support to help identify potential border threats and 
interdict them when they arise, and are improving the security 
of international travel and trade between our two countries.
    The cartels' criminal activity is not limited to the 
border; it permeates much of Mexico. Mexican crime syndicates 
have also established themselves in cities and communities 
throughout the United States, including major marijuana 
cultivation in Indian country, vast methamphetamine and cocaine 
distribution networks, such as the recently disrupted U.S. 
operations of the La Familia cartel, and the appearance of 
operatives from the Mexican Zeta gang along the northern 
border.
    Mexico still suffers the most from cartel violence, with 
more than 6,000 deaths in 2008 directly resulting from criminal 
activity and the conflict between criminal organizations and 
the Mexican Government. At current rates, cartel-related 
murders in 2009 will likely exceed this record-setting 2008 
level. The city of Juarez has one of the highest murder rates 
in the world, and over 133 deaths per 100,000 inhabitants. And 
fatalities have increased by 131 percent just in the past year.
    On the U.S. side of the border, there recently have been 
several troubling incidents. In May, Border Patrol Agent Robert 
Rosas was ambushed and murdered while patroling along the 
border in the San Diego sector. In September, three vans loaded 
with 74 undocumented aliens tried to run through the San Ysidro 
Port of Entry, resulting in gunfire, injuries, and closing the 
Nation's busiest port of entry for the first time since the 
Kennedy assassination.
    There are also regular reports of violent kidnappings and 
gang warfare in the U.S. border region, all of which has likely 
ties to Mexican criminal enterprises. The city of Phoenix, for 
example, had 366 kidnappings in 2008, 359 in 2007, the highest 
reported rate in the U.S., many of which can be tied to human 
smuggling operations. Today, we expect to hear how DHS is 
responding to these problems.
    There has also been positive news that we should not 
overlook. In August, the Mexican military made their largest 
seizure ever of a methamphetamine complex in Durango. In 
October, U.S. law enforcement arrested over 300 affiliates of 
the La Familia cartel. The Merida Initiative continues to 
mature. DHS and other Federal law enforcement agencies are 
enhancing their joint efforts with Mexico, including 
information sharing, joint targeting and investigations, better 
communications, and stronger operational coordination.
    The subcommittee has increased funding to expand DHS 
efforts on the southwest border and has supported the 
Department's reallocation of resources to address these issues. 
The 2009 defense supplemental provided $100 million for 
additional CBP officers, inspection technology, and ICE 
enforcement efforts.
    The recently enacted 2010 Appropriations Act included $72 
million for 144 new Border Patrol agents and 115 CBP officers, 
and $100 million for ICE operations along the southwest border. 
All of these funds show the subcommittee's commitment to combat 
the cartels' smuggling operations.
    So we look forward to hearing about the impact of these 
funding enhancements, the current status of U.S.-Mexican 
cooperation, and the prospects for ending cartel violence.
    We will insert your complete statements in the hearing 
record, so we ask you, please, to summarize your statements in 
a 5-minute oral presentation.
    We will begin with Deputy Assistant Secretary Silver, 
followed by Acting Commissioner Ahern, and then Assistant 
Secretary Morton.
    Let me first turn, though, to our distinguished Ranking 
Member, Mr. Rogers, for any comments he has.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5704A.001
    
    [GRAPHIC] [TIFF OMITTED] T5704A.002
    
    [GRAPHIC] [TIFF OMITTED] T5704A.003
    
    [GRAPHIC] [TIFF OMITTED] T5704A.004
    
           Opening Statement of Ranking Member Harold Rogers

    Mr. Rogers. Thank you, Mr. Chairman. And welcome to our 
guests. For Secretaries Silver and Morton, this marks your 
first appearance here, so we welcome you to this hearing. But 
for Commissioner Ahern, this hearing marks probably your last 
appearance before us. I, for one--and I think I speak for all 
of us here--want to note with appreciation your 33 years of 
service to your country. You have been here often, you have 
worked in this Department since its inception and on these 
issues long before then, and so we want to say thank you for 
your service. We have often relied upon you to explain the 
intricacies of CBP's vast mission. We are truly grateful for 
your noteworthy achievements and your efforts to improve 
security while also promoting legitimate travel and trade.
    While you have been at the Department in that position, the 
budget of CBP has mushroomed, I think perhaps doubled or more 
during your tenure, so you have presided over dramatic changes 
in the way we provide security for the country. Thank you much 
for your service.
    As the Chairman noted, it was 7 months ago that this 
subcommittee convened a hearing on the Mexican drug war. Since 
that hearing in March, DHS and its law enforcement partners 
have endeavored to further disrupt the drug cartels as well as 
secure our borders. But in spite of notable efforts by our 
brave law enforcement and security professionals in the field, 
and the sustained courage of the Mexican Government, the 
cartels continue to operate with near impunity. The total 
number of drug-related murders in Mexico through October of 
this year was about 7,000. That surpasses last year's total of 
6,400 and is on pace to reach nearly 9,000 murders by the end 
of the year.
    In Juarez, the Mexican border city just south of El Paso, 
the number of drug-related murders resulting from cartel 
infighting has passed 2,000 and is on pace to increase by 
almost 25 percent over last year. This increase in murder rate 
is in spite of the sustained presence of the Mexican military 
and the replacement of municipal police officers and Federal 
customs officials that failed confidence exams.
    As demonstrated by several law enforcement actions by our 
Justice Department this year, the cartels' distribution 
networks touch nearly every city in the United States, and 
their methamphetamine operations now span the entire west coast 
of North America, infecting our northern border with Canada as 
well. And despite DHS' outbound inspection efforts at our ports 
of entry and along our rail lines, the cartels continue to 
obtain weapons and revenue from multiple sources. They were 
even so bold as to not hesitate to kill one of our own Border 
Patrol's finest back in July.
    If there is one thing I am certain of from my time as a 
State prosecutor and my years in Congress, it is that drugs 
pose a grave and unrelenting threat to the health, safety and 
security of the United States. Therefore, we must do all that 
we can to secure our border, thwart these cartels, and put a 
stop to their savage criminality and murderous ways.
    Now, as I said back in March, the escalation in violence 
and territorial infighting over smuggling routes suggests that 
efforts to improve our border security, coupled with the 
noteworthy actions of Mexico's leadership, have most certainly 
gotten the cartels' attention. Unfortunately, this also means 
things might even get worse before they get better. So the 
challenge being presented to DHS by this drug war is clear.
    My question is whether or not we are up to the challenge. 
And when I pose this question, I am not wondering whether we 
have the proper resources in place to just disrupt this 
organized crime, I am wondering whether we have the tools and 
the will to actually break its back. Now, I realize that is a 
mighty tough chore, but I am quite certain it is a worthy 
fight. After all, counter smuggling is perhaps our Nation's 
oldest Homeland Security mission, spanning back to the days of 
Alexander Hamilton and his recognition for the need to 
establish a customs service in what is now our Coast Guard.
    So today, I am not only interested in merely assessing our 
progress in taking this fight to the cartels, I am interested 
in learning about what more we can do in terms of resources and 
authority to combat and deter this clear and present threat to 
the United States and its citizens. I ask these questions in 
part because I have serious concerns over the administration's 
direction on so-called ``immigration reform,'' work site 
enforcement, DHS operational funding and the like, subjects not 
on the agenda here today, but certainly inescapably tied to our 
ability to secure our Nation, strengthen our border, and 
protect our people. We must get securing our border and 
stopping this drug menace right before we entertain new costly 
ideas or roll back our immigration laws.
    Thank you, Mr. Chairman. I look forward to today's 
discussion.
    Mr. Price. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5704A.005
    
    [GRAPHIC] [TIFF OMITTED] T5704A.006
    
    [GRAPHIC] [TIFF OMITTED] T5704A.007
    
    [GRAPHIC] [TIFF OMITTED] T5704A.008
    
    [GRAPHIC] [TIFF OMITTED] T5704A.009
    
    Mr. Price. We do have votes that have been called, I think 
probably multiple votes; is that right? Two votes. We will 
return right after those. However, I think we do have time for 
Deputy Assistant Secretary Silver to give us the benefit of her 
oral remarks, and then we will take a break and be back for our 
other witnesses.
    Please, go ahead, Ms. Silver.

                       Statement of Mariko Silver

    Ms. Silver. Chairman Price, Ranking Member Rogers, and 
distinguished members of the subcommittee, thank you for the 
opportunity to provide testimony concerning the Department of 
Homeland Security's (DHS) ongoing work to secure the southwest 
border and our communities. And thank you for the support you 
have provided to the Department and its initiatives, including 
the Southwest Border Initiative. The Department values the 
support we receive from Congress and the strong relationships 
we have with this committee and your colleagues.
    Additionally, I would like to express the Department's 
appreciation for the time the subcommittee staff recently took 
to visit the southwest border and Mexico to see our operations 
and partnerships firsthand.
    DHS is implementing a strategy that is designed to meet the 
threat posed by the drug trafficking organizations and other 
criminal organizations that threaten Mexico, our border and our 
communities. In this, we recognize that what happens in Mexico 
and along our shared border affects the entire United States.
    We are working with our partners here and in Mexico to 
cripple the ability of criminal organizations to operate across 
the border and in the U.S. interior. First, it is important to 
put our border challenges in context. The situation in Mexico 
is undeniably serious. Transnational drug trafficking 
organizations are fueling extraordinary violence in communities 
like Tijuana and Ciudad Juarez. Fundamentally, however, most of 
Mexico is not experiencing the type of violence we see 
portrayed in the media.
    The number of murders in Mexico is alarming, but I do want 
to note that this violence is, for the most part, criminal-on-
criminal violence and is highly concentrated.
    We are also not seeing this type of violence on the U.S. 
side of the border, and we are not seeing violence spill over 
into U.S. communities. In fact, San Diego and El Paso, which 
are across the border from Tijuana and Ciudad Juarez, are among 
the safest cities in America. The lack of spillover violence is 
a testament to the strength of U.S. border communities and the 
daily dedication, hard work and vigilance of our law 
enforcement officers and prosecutors--Federal, State, local and 
tribal. Should there be spillover violence, however, we are 
prepared. DHS' Southwest Border Violence Operations Plan will 
guide the interagency Federal response.
    Secretary Napolitano is deeply familiar with the challenges 
we face at the border, the connections between what happens at 
the border and what happens in our communities and the 
relationships between border issues and larger homeland 
security and national security concerns. This has resulted in a 
much more integrated and forward-leaning approach to border-
related issues than we have seen in the past. As the Secretary 
has put it, we cannot segregate the southwest border from the 
rest of our Nation. We have to recognize that what happens at 
the border affects what happens in Kansas City, for example, 
and what happens in Kansas City affects the border.
    Under her leadership, DHS is advancing a comprehensive, 
strategic approach to secure our border that includes 
addressing issues with a nexus to the border. To do this, we 
must, and do, work closely with our partners--interagency, 
State, local, tribal and foreign. These partners bring a wealth 
of expertise, knowledge, resources and legal authorities that 
complement our efforts.
    Secretary Napolitano has clearly said that we need to make 
sure that the southwest border is not set off by itself but is 
part and parcel of our national strategy. In this vein, I want 
to emphasize that we do have an unprecedented opportunity to 
collaborate and work with Mexico. President Felipe Calderon and 
his administration are engaged in a courageous fight against 
the drug cartels, and the United States and Mexico have reached 
an historic understanding of our shared responsibilities for 
managing the border, addressing transnational challenges, and 
fighting transnational crime. In fact, I just returned last 
night from Mexico City, where I met with leadership from across 
the Government of Mexico as part of the ongoing U.S. Government 
effort to ensure that our relationship is holistic and robust.
    We must continue to work with our partners in Mexico to 
build a resilient border that allows the secure flow of people 
and goods, keeping out drugs, weapons and cash that fuel the 
transnational criminal organizations.
    DHS is already working with Mexico in training Mexican 
Federal police and Customs officials, developing a Mexican 
border patrol capability, and expanding joint efforts to stem 
southbound smuggling of firearms and cash and joint efforts on 
investigations. This work is in our national interest, and we 
are committed to this fight.
    Chairman Price, Ranking Member Rogers, and other members of 
the committee, thank you again for the opportunity to testify 
today, and I would be glad to take any questions.
    Mr. Price. Thank you very much.
    Mr. Ahern, rather than have to interrupt your statement, we 
will adjourn briefly and return immediately after the second 
vote.
    [Recess.]
    Mr. Price. The subcommittee will reconvene.
    Mr. Ahern, we will turn to you for your oral statement.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5704A.010
    
    [GRAPHIC] [TIFF OMITTED] T5704A.011
    
    [GRAPHIC] [TIFF OMITTED] T5704A.012
    
    [GRAPHIC] [TIFF OMITTED] T5704A.013
    
    [GRAPHIC] [TIFF OMITTED] T5704A.014
    
    [GRAPHIC] [TIFF OMITTED] T5704A.015
    
    [GRAPHIC] [TIFF OMITTED] T5704A.016
    
    [GRAPHIC] [TIFF OMITTED] T5704A.017
    
    [GRAPHIC] [TIFF OMITTED] T5704A.018
    
                       Statement of Jayson Ahern

    Mr. Ahern. Chairman Price, Ranking Member Rogers and other 
members of the subcommittee, good afternoon. Thank you very 
much for the opportunity to update you on CBP's efforts to 
secure our borders. I am very pleased to be here with my DHS 
colleagues to summarize some of the efforts we have been seeing 
since our last hearing in March of this year.
    Before I begin today, I would also like to thank this 
committee, and Congress as a whole, for your continued support 
of our mission. As was mentioned, certainly our budget has 
doubled in the last few years, and we are very thankful for 
that. Let me tell you what we have been able to do as a result 
of receiving those additional funds.
    Certainly, we have increased the size of the Border Patrol 
to 20,130. Our frontline officer positions are now 21,240, and 
we have also been able to construct 640 miles of fence along 
the southwest border. I would submit that every investment in 
CBP helps to protect the country from a variety of threats.
    This fiscal year, we seized or assisted in the seizure of 
more than 4 million pounds of narcotics. We have apprehended 
more than 556,000 illegal aliens between our ports of entry. 
That is a decrease of 23 percent this fiscal year compared to 
last fiscal year. We have also encountered more than 224,000 
individuals who are inadmissible at our ports of entry.
    Outbound operations. Since March of this year when 
Secretary Napolitano announced the Southwest Border Initiative, 
we have seized $23 million in outbound money going into Mexico. 
That is an increase of 239 percent for the same time last year. 
Our outbound operations were supported by $40 million included 
in the war supplemental, and certainly the reprogramming 
efforts we put forward, and we thank the Congress for its 
support on those.
    We also were able to invest that money in a deployment for 
large-scale imaging systems to increase the scanning of 
conveyances crossing our border. We assigned 13 different 
currency and firearms canine teams, as well as mobile response 
team special operations, and the assignment 100 additional 
Border Patrol agents to support our outbound operations at our 
ports of entry.
    For technology, we remain very committed to deploying 
surveillance capabilities to our personnel in the field. We are 
currently in the testing phase of our first deployment of 
SBInet called Tucson 1, which will be covering 23 miles of the 
border in the Sasabe area of the border. Simultaneously, we are 
also planning for the second deployment known as Ajo-1, which 
will cover about 30 miles of the border near Ajo, Arizona. We 
will build from the lessons we are learning from Tucson-1 
deployment.
    Just as a more specific update, Tucson-1 is now built, we 
have also conducted system qualification testing of some of the 
improved components that were incorporated, and we are now in 
the final acceptance testing phase which will be planned for 
December of this year. If successful, we will accept ownership 
of the system and turn it over to the Border Patrol for 
comprehensive operational testing, which will begin early next 
year.
    The Ajo construction is imminent but is awaiting completion 
of environmental assessment activities. Our current plan shows 
that the construction will begin in early December, with 
completion by next spring.
    While we are waiting for the SBInet deployment, please know 
that we are continuing to augment our existing capabilities 
with other technology investments to provide a more immediate 
radar and camera coverage along our borders, such as mobile 
surveillance systems, ground sensors, remote video surveillance 
systems, and unmanned aerial systems.
    At our points of entry, another effort I think is very 
important is the enhanced security we are receiving from the 
implementation of the Western Hemisphere Travel Initiative. 
Since the implementation in June of this year, we have seen the 
documents' compliance rate continue to remain very strong; it 
is now at 95 percent.
    During the last year, we have also had unprecedented 
cooperation with the Mexican law enforcement agencies. Much of 
our work is centered around helping Mexico build up their 
customer service and their capacity and sharing best practices 
between our two agencies. Our goal is to promote smart and 
effective security at the southwest border by increasing 
coordinated security efforts between our two organizations.
    Our increased enforcement efforts to mitigate southbound 
weapon and currency smuggling fully support the Government of 
Mexico's counternarcotics efforts because illicit proceeds that 
are flowing back to Mexican drug trafficking organizations are 
crossing our common border. And the Mexican Government's 
ability to confront its drug trafficking industry and its 
willingness to cooperate with U.S. Government efforts will 
directly affect our ability to secure our southwest border.
    As such, we have made some progress, but I must be very 
candid. Much more work remains to be done in this area, and we 
will continue to build upon these efforts and the success we 
have seen thus far.
    Challenges. Certainly we have realized our agents and 
officers are in an area where they receive a significant amount 
of violence and encounter criminals daily. In fiscal year 2009, 
we had more than 1,000 incidents of violence against our 
frontline officers and agents. As we continue to deploy more of 
our enforcement strategy and protocols at the border, the 
probability remains that the tougher enforcement will lead to 
additional attempts for individuals to try to smuggle drugs and 
people through our borders, and also the potential for 
increased violence against our frontline personnel. We need to 
be very prepared for that, and we are.
    In addition to the operational challenges we face, we also 
face some financial challenges as we go forward because of the 
current downturn in the economy. Certainly, as we have talked 
about with this committee before, Customs and Border Protection 
is fee-funded to a tune of more than $1 billion each year. And 
as we are evaluating the downturn of the economy for some of 
the fee-collecting environments, we will also be balancing that 
effect on the personnel who will be able to continue to invest 
through that resource.
    In conclusion, thank you very much for the opportunity to 
testify here today, and I look forward to the opportunity to 
answer any questions.
    Mr. Price. Thank you, Mr. Ahern.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5704A.019
    
    [GRAPHIC] [TIFF OMITTED] T5704A.020
    
    [GRAPHIC] [TIFF OMITTED] T5704A.021
    
    [GRAPHIC] [TIFF OMITTED] T5704A.022
    
    [GRAPHIC] [TIFF OMITTED] T5704A.023
    
    [GRAPHIC] [TIFF OMITTED] T5704A.024
    
    [GRAPHIC] [TIFF OMITTED] T5704A.025
    
    [GRAPHIC] [TIFF OMITTED] T5704A.026
    
    [GRAPHIC] [TIFF OMITTED] T5704A.027
    
    Mr. Price. Mr. Morton.

                        Statement of John Morton

    Mr. Morton. Mr. Chairman, Ranking Member Rogers, and 
distinguished members of the subcommittee, thank you for 
welcoming me here today in this, my first appearance before the 
subcommittee.
    Many agencies play critical roles in the Nation's response 
to the situation along the border. DHS, particularly ICE and 
our sister agency CBP, is at the forefront of this response.
    As you know, ICE is the largest investigative agency within 
DHS and the second largest investigative agency in the entire 
Federal Government, second only to the Federal Bureau of 
Investigation. Our investigative mandate is quite broad and has 
a particular emphasis on cross-border crime--namely, the 
smuggling of people, drugs, contraband, money and firearms. To 
this end, we have 1,750 investigative personnel stationed along 
the southwest border alone and another 28 in Mexico.
    We are also the agency charged with arresting, detaining 
and removing aliens unlawfully in the United States, including 
criminals and gang members. To that end, we have approximately 
2,500 detention and removal personnel along the southern 
border. Simply put, ICE is in a unique and important position 
with respect to law enforcement issues presented at our 
southwest border.
    Our work on the southwest border would not have been 
possible without the continuing support and resources provided 
through the fiscal year 2010 appropriations bill for southwest 
border activities. Border enforcement is a complex and 
expensive proposition, and I thank the subcommittee for the 
support in recent years.
    As the Chairman noted, ICE received $100 million in 
additional border funding in the fiscal year 2010 
appropriations bill and $55 million in supplemental funding. 
This money will allow us to expand some key initiatives and 
fund additional criminal investigations against the cartels 
responsible for violence directly on the Mexican side of the 
border.
    As Mr. Ahern just said, there is still much work to be 
done, and we will need to work closely with the committee in 
the coming years to get the work done well. About the time of 
our last testimony here in March, we announced the launch of 
the Southwest Border Initiative. Since then, we have seen 
measurable success as a result of our strengthened commitment 
to the issue.
    Let me just summarize a few of the successes that are 
outlined in great detail in my written statement.
    First, since March, we have seen large increases in 
seizures of weapons and drugs by ICE's border offices, compared 
to the same period the year before.
    Second, we are seizing more money, the life blood of 
illegal activity. And, of course, we are making more criminal 
arrests. For example, San Diego has seen a 24 percent increase; 
Phoenix, a 15 percent increase.
    Many of these successes could not have been achieved 
without the excellent work of our Federal, State, local, tribal 
and foreign law enforcement partners. Through these 
partnerships, we have succeeded in targeting, investigating and 
dismantling criminal operations at the border.
    Just a handful of these programs to note: the Border 
Enforcement Security Task Forces that I think we will discuss 
in greater detail shortly; Operation Armas Cruzadas, in which 
we collaborate with the Mexican Government to focus on arms 
trafficking; Operation Firewall, where we work with CBP to stem 
the flow of cash across the border; and the Illegal Drug 
Project, which is a brand new pilot that we have entered into 
with CBP, the Justice Department and the Mexican Office of the 
Attorney General to prosecute narcotic smuggling offenses that 
arise in Nogales (but for which there is also jurisdiction in 
Mexico to actually work with our Mexican counterparts to 
prosecute them in Mexico).
    As the committee knows, I have also taken direct steps to 
improve ICE's working relationships with both ATF and DEA. Both 
agencies are critical to good border enforcement, and I am 
personally committed to seeing our relationships improve.
    In addition to our domestic efforts, we maintain a strong 
presence in Mexico. For instance, we have two specialized 
vetted units, and we are working on a third, focusing on 
firearms. A good example of our cross-border work is the recent 
seizure just 2 months ago of $41 million in currency that had 
been hidden in shipping containers in ports in Colombia and 
Mexico. ICE worked directly with our Mexican and Colombian 
partners, as well as CBP, to track the containers so that law 
enforcement could seize the cash.

                     STATEMENT OF JOHN MORTON CONT.

    And just last week, we relayed information to Mexican 
authorities about a residence in Tijuana being used for drug 
trafficking, and the subsequent raid on that house by the 
Mexican military turned up $2.1 million and several firearms.
    As you can tell, we are beginning to see real benefits from 
our efforts, and I believe the success will continue. I assure 
you that ICE will continue to use its broad jurisdiction to 
crack down on the trafficking and the smuggling and violent 
activities surrounding the cartels.
    I just want to thank the committee again for the support it 
has provided over the years, its interest in ICE and the men 
and women who work for it. I want to thank both the Chairman 
and the Ranking Member for their leadership of this 
subcommittee, particularly the bipartisan nature of it.
    These are hard, challenging issues. And I appreciate the 
work that the subcommittee has put into it and the work of the 
staff and the recent trip that we just took. I don't pretend to 
have all the answers, but it is good to see that kind of 
collaboration and serious thought in government.
    Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5704A.028
    
    [GRAPHIC] [TIFF OMITTED] T5704A.029
    
    [GRAPHIC] [TIFF OMITTED] T5704A.030
    
    [GRAPHIC] [TIFF OMITTED] T5704A.031
    
    [GRAPHIC] [TIFF OMITTED] T5704A.032
    
    [GRAPHIC] [TIFF OMITTED] T5704A.033
    
    [GRAPHIC] [TIFF OMITTED] T5704A.034
    
    [GRAPHIC] [TIFF OMITTED] T5704A.035
    
    [GRAPHIC] [TIFF OMITTED] T5704A.036
    
    [GRAPHIC] [TIFF OMITTED] T5704A.037
    
    [GRAPHIC] [TIFF OMITTED] T5704A.038
    
               U.S.-MEXICO PARTNERSHIP TO COMBAT CARTELS

    Mr. Price. I thank you, Mr. Morton, for those supportive 
words, and also for your statement.
    We are ready to begin questions. I will turn first to you, 
Ms. Silver, given your direct responsibilities for the Mexico 
relationship.
    We know the Government of Mexico is focusing more than ever 
on fighting the cartels. The current level of cooperation and 
coordination between the Mexican and U.S. Governments is 
probably unprecedented. There are several reasons for these 
changes: the courage and leadership of President Calderon; I 
think President Obama's emphasis on the U.S. responsibilities 
in this fight, specifically the U.S. market for drugs, and the 
U.S. as a source of cartel guns and money; and, of course, the 
support our country has provided through the Merida Initiative 
also bears considerable responsibility.
    We do seem to face an historic opportunity, but also of 
course, monumental challenges; and I think also, concerns about 
how long this commitment will last and how institutionalized it 
has become or can become. Are we racing against the clock to 
establish a viable and sustainable international partnership to 
combat these cartel organizations? What are the remaining 
challenges to achieving that effective lasting system--a 
lasting system, not tied to single personalities--to disrupt 
cartels in Mexico and a sustainable operational partnership 
with Mexico?
    Ms. Silver. Mr. Chairman, thank you for the question.
    You raise a very important point. We are in a moment of 
unprecedented cooperation. We have a huge opportunity to face 
this enormous challenge. Now is a key time--you asked for the 
timeline--now is a key moment in our cooperation. We have a 
real window here, and I hope that we can embrace it. That is 
part of the reason why the Secretary, the gentleman to my left 
and I have all spent a good deal of time working with our 
Government of Mexico counterparts--us traveling down there and 
them coming up here.
    In addition to that, you mentioned Merida, which, although 
managed by the Department of State, DHS is a robust participant 
in. We are working, through Merida, and various other 
mechanisms, on training. I think coming up with a comprehensive 
training strategy is a big piece of what we we need to do to 
institutionalize the work that we have already underway.

                SAFE EFFECTIVE DEPLOYMENT OF CBP AGENTS

    Mr. Price. Thank you. I am sure we will elaborate further 
on the points you raised in the course of the hearing. But for 
now I want to turn to you, Commissioner Ahern, and just note 
that since our last hearing CBP has lost a Border Patrol agent 
to cartel gunmen. Your agency is encountering more desperate, 
more politically violent smuggling attempts. Agents are 
regularly attacked, occasionally injured by rocks and other 
projectiles, just in the course of a day's work. They patrol 
the border with Mine Resistant Ambush Protected Vehicles, as 
well as other vehicles modified with protective shielding 
against bullets and explosives as well as projectiles.
    Of course CBP's increased presence along the border makes 
it a bigger target for the smugglers, with over 17,000 agents 
on the southwest border, over 630 miles of completed pedestrian 
and vehicle fencing, and additional officers and more robust 
outbound inspection and enforcement capability resources from 
our fiscal 2009 supplemental appropriations and reprogramming. 
So all this is, of course, much more muscular, much more 
visible.
    Can you say with confidence that this more muscular profile 
is having a deterrent effect on the cartels?
    And then, just beyond that, your testimony identifies two 
elements to ensure that agents can be safe and effective in 
this hostile environment between the ports of entry, which 
surely applies to those ports as well. These elements were 
situational awareness for optimal deployment, and the 
capability to act in a lawful manner when and where required. 
So it does lead me to probe a bit on those two points. Does CBP 
have the situational awareness or the intelligence that it 
needs to deploy its agents and its officers most effectively? 
What kind of headway have we made in that regard? And could 
improvements be made in organization or tactics to reduce the 
burden of constant vigilance that your agents face?
    Mr. Ahern. Let me take the last part first. Certainly, 
there is more we can do to increase our vigilance. We 
constantly are striving to improve, and I think we owe that to 
this committee but also the American people that we serve.
    I had the unfortunate opportunity to attend Agent Rosa's 
funeral and have a conversation with the family to ask these 
very questions. What more can we do to protect our frontline 
personnel? And certainly what we have been doing has been with 
the support of this committee.
    If you take a look at providing the tactical infrastructure 
that we now have in place, this actually diminishes the 
capability for some of the violent attacks where we have 
actually lost other agents due to run-overs, being run over by 
vehicles that could drive through our borders. That 
infrastructure is an improvement. Having the ability to give 
situational awareness is not just through intelligence or 
officer awareness or agent awareness, it is also the ability to 
take a look and perceive what is coming at us through the 
deployment of more than 40 mobile surveillance systems and the 
deployment of the tower capabilities to be able to see what is 
coming at us and to be able to make a determination to classify 
whether that is a threat or not. That gives situational 
awareness to our personnel, which is critical as we go forward.
    So we need to continue to move forward, not just wait for 
the full SBInet package but also to deploy the remote video 
surveillance systems, the mobile surveillance systems, other 
capabilities, sensors, and our unmanned aerial vehicles (UAVs) 
overhead to fly and see what actually is coming at our forces. 
Then to be able to deploy Blackhawks to the areas with support 
teams to help the individuals on the ground. Those are some of 
the things we need to be continuing to grow that capacity as we 
go forward.
    Mr. Price. Thank you.
    Mr. Rogers.

                           SPILLOVER VIOLENCE

    Mr. Rogers. Thank you, Mr. Chairman.
    Ms. Silver, I was interested in your statement to the 
effect that we have not seen spillover violence in the U.S. I 
want to know your feelings about this, because the Department 
of Justice's Project Coronado in late October arrested 1,200 
people associated with the Mexican drug trade across 19 States 
in the U.S. That followed a similar large operation in February 
where we saw 755 cartel members across the U.S. arrested, 
taking hostages in places like Atlanta and Birmingham and most 
any city in the U.S. What do you say about that?
    Ms. Silver. Thank you for the question.
    With regard to spillover violence, it is important that we 
look at the whole life cycle of the drug trade, that we look at 
the networks, that we look at the relationship, as I said, 
between what happens at the border and what happens in Mexico 
and what happens in the interior. Spillover violence is a 
specific definition that we use in an operational context. We 
need to have these fine-grained differences in definition in 
order to be able to apply the right responses to specific 
threats.
    I would add also, as I mentioned in my testimony, that San 
Diego and El Paso and some of our border communities are among 
the safest cities in America. Now, this doesn't mean that there 
aren't challenges and that there isn't criminal activity, but 
it does mean that our border communities are incredibly robust, 
and the work that we are doing on the border is worth noting in 
terms of stemming the violence and preventing any violence from 
actually spilling over.
    Mr. Rogers. Well, there were staff down there last week in 
conversations with law enforcement and State Department 
officials on the border and in Mexico. It was clear that the 
cartels are still moving their narcotics, operating with near 
impunity across that border and moving those drugs along the 
supply routes to most major U.S. cities, and consequently to 
the countryside. And whether you're talking about spillover 
violence immediately on the border or in Birmingham, it is 
still spillover violence and it is not being controlled.
    And according to the conversations last week, the cartels 
are operating with near impunity in that respect. So how can 
you say that there is no spillover violence?
    Ms. Silver. As I mentioned, spillover violence is a 
specific definition that we use in an operational context.
    But to your point about the fact that the networks are 
within the interior and that we do need to look at enforcement 
actions and investigative actions, not just at the border 
itself, but also in the interior, absolutely.

                 LACK OF TRUST WITH MEXICO STILL EXISTS

    Mr. Rogers. Do you know what the expression in Spanish 
``oplata o ploma'' means?
    Ms. Silver. Yes, sir.
    Mr. Rogers. Tell us.
    Ms. Silver. It means silver or lead.
    Mr. Rogers. Silver or lead. What does that mean, in 
context?
    Ms. Silver. I assume you weren't just looking for a literal 
translation. Essentially it is a phrase that people use related 
to how the cartels function. And it implies that you either pay 
or you are killed.
    Mr. Rogers. You must choose between a bribe or 
assassination, silver or lead, right? And that is the code 
words throughout Mexico, certainly even in Cancun, the supposed 
haven or sanctuary that the cartels in the past have sort of 
steered clear of because they didn't want to bother or impede 
the tourism trade that brings lots of money into Mexico.
    And yet there, with the assistance, apparently, of the 
chief of police, we saw the absolute tortured murder of 
Brigadier General Enrique Tello, high-ranking counterdrug 
official, in early February. I am told that his wrists, elbows 
and knees were all broken before he was murdered.
    Is the effort in Mexico by the Calderon administration and 
our Merida Initiative having an effect or not?
    Ms. Silver. Well, there is no question that the violence in 
many parts of Mexico--although not throughout Mexico but in 
many specific parts of Mexico--is extreme. The story you just 
related is one example of that.
    We are working on an ongoing basis, as Assistant Secretary 
Morton mentioned, on vetted units. Part of the conversation 
that I was able to have when I was down in Mexico just 
yesterday and the day before was related to what is called 
``Control de confianza,'' which is Internal Affairs-related 
issues and thinking beyond just vetted units, but across them. 
How do we institutionalize the trust that we need in order to 
be successful?
    Mr. Price. Thank you.
    Mr. Rodriguez.

             TRANSPORTING ILLEGAL IMMIGRANTS THROUGH TEXAS

    Mr. Rodriguez. Thank you very much for being here. And I 
want to thank you, Mr. Chairman, for holding this hearing on 
this issue and for conducting it as quickly as possible.
    Let me quickly just ask you a question regarding the Border 
Patrol project that is taking individuals from Arizona through 
Texas and Presidio. You notified us in September-- I want to 
thank you for that--and I know you notified the first 
responders. The only complaints we have gotten is that the 
local officials weren't notified.
    But my understanding--and you let me know if I am not 
correct--that the efforts that are taking place is you are 
taking the illegals that are being caught or the aliens that 
are being caught in Arizona, and you are transporting them 
through Presidio to Ojinaga. And then my understanding is that 
the Mexican Government, or us, in conjunction with us, are 
providing bus tickets to Chihuahua and the interior.
    My understanding also is that you have taken some 1,047 
through there; that of that, only two that we know of have come 
back not necessarily through the Marfa sector, but two through 
Texas; the rest, about 8 percent recidivism; is that correct?
    Mr. Ahern. Yes. Your numbers are pretty precise. It has 
been 1,047 illegal immigrants transported through Presidio 
through November 16 of this year when we actually started to 
tally the numbers for this hearing. Of the 1,047, 84 have 
actually been reapprehended coming back across the border.
    Interestingly enough, of the reapprehensions, 72 were in 
Tucson so (they made their way back on an average of 6 days 
before the reapprehensions occurred) in El Centro, 3 in San 
Diego, 1 in Laredo, 1 in Rio Grande Valley and 1 in Nogales.
    Mr. Rodriguez. And none of them through my district?
    Mr. Ahern. That's correct, sir.
    Mr. Rodriguez. Okay. My understanding is also that they are 
put on a bus, and they are just basically taken through there. 
Because I know the Governor is concerned and has made some 
comments on this, I just want to get some clarification. How 
long do you foresee having this program in effect?
    Mr. Ahern. We are looking to continue this program because 
it has been very successful. We received a letter from the 
Governor, and we will be responding appropriately with some of 
this information we just talked about today.
    Mr. Rodriguez. And is it my understanding that one of the 
reasons you are doing this is because the smugglers, ``los 
coyotes,'' basically get paid to try to pass them three times. 
By sending them across, they won't be able to get back to the 
smugglers?
    Mr. Ahern. There is a variety of different arrangements 
that are with the smuggling organizations. But certainly not 
putting them back at the starting line, if you will, we do 
think is an effective strategy and actually reduces the 
recidivism rate.
    Mr. Rodriguez. Has the Marfa sector in my area--are any 
other areas besides the two that are mentioned in Texas, not in 
my area, that have gone through there?
    Mr. Ahern. No. The only ones I show here in Texas are the 
one in Laredo and one in Rio Grande Valley. That is the two.
    Mr. Rodriguez. Do we know for a fact that the Mexicans on 
the other side are providing their bus trips into Chihuahua?
    Mr. Ahern. We have no reason to believe that has occurred 
because we actually are there when we make the transfer across 
the border to Mexican officials.

    CORRELATION BETWEEN INFLUX OF LEGAL MEXICAN NATIONALS AND CRIME

    Mr. Rodriguez. Okay.
    Ms. Silver, you mentioned that there is crime on crime; I 
guess Mafia killing each other or messing with each other. Can 
you explain--and maybe Mr. Morton might comment--we have seen a 
huge influx--and I don't know the numbers, so I apologize, but 
I don't think I'm exaggerating in terms of Mexican nationals 
legally coming into the border--Juarez, San Antonio, the 
Valley, all over, legally.
    Do we have something to attribute that to besides the 
economy if there is crime on crime? Because I would presume 
that these are people not engaged in crime.
    Ms. Silver. Congressman, I would have to look at the 
numbers to confirm any kind of possible correlation.
    Mr. Rodriguez. Can I ask for you to maybe really do a 
study? And I hope I am not exaggerating, but there is a huge 
number of Mexican nationals, people that have the capabilities 
of moving across.
    And at what point I would ask, also--I would presume they 
have a significant responsibility to making sure Mexico 
survives and Mexico goes in the right track. Are they 
abandoning Mexico? Are we getting the support from those 
individuals, those billionaires on the other side?
    Ms. Silver. I can't speak specifically to the billionaires, 
but we certainly would be happy to get you more information 
about whether there is any correlation to the extent that we 
have it.
    Mr. Rodriguez. Because I know the Minority and the Chairman 
wants to do whatever we can to make something happen, but they 
also need to take responsibility in Mexico. Thank you.

                              DRUG CARTELS

    Mr. Price. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.
    This is regarding meth. The success of the Merida 
Initiative, and the United States-Mexican cooperation in 
general, would be a hinge in the ability for both nations to 
address the serious erosion of national security, public order, 
and the quality of life, not only in the United States but in 
Mexico, that is caused by the trade and consumption of illicit 
drugs.
    I am the founder and co-chair of the Congressional Caucus 
to Fight and Control Methamphetamine. About 15 or 20 years ago 
in California--unfortunately in parts of my district--was 
Ground Zero for methamphetamine manufacturing, and then turned 
into a major trafficking corridor up the 5 Freeway, up through 
north, and then proceeded throughout the rest of the Nation.
    With the national restrictions on pseudoephedrine put in 
law in 2006, we have seen home-grown labs decrease--at least up 
until now. The emergence of Mexican cartels running super-labs 
south of the border, and trafficking, has been up to 80 to 90 
percent of the meth that is now distributed inside the United 
States.
    When I heard, Ms. Silver, your testimony on cross-violence 
not being a problem, or less of a problem, I am kind of 
shocked; because we see every day in Los Angeles and San Diego 
significant violence associated with the drug traffic. As a 
matter of fact, I was very pleased that the efforts of DHS and 
DEA and the other partner agencies are making the strike 
against the La Familia drug cartel which was announced last 
month. A significant part of that was in the inland empires of 
southern California; as you know, one of the most violent drug 
trafficking cartels responsible for the vast majority of meth 
crossing into the borders. And I want to commend the men and 
women on both sides who took an important action during that 
44-month investigation, and I hope their efforts are sustained.
    The question that I have is: Do we know if the La Familia 
cartel is rebuilding in the wake of that large bust, or are we 
seeing another cartel fill the void left by the methamphetamine 
drug trade?
    And the follow-up question is: How are the U.S. and Mexican 
Governments using any intelligence captured from this operation 
to make sure our efforts are not in vain?
    Ms. Silver. Congressman, first, I just want to be clear. 
The distinction that I was making in terms of discussing the 
violence is not to say that criminal violence doesn't exist. 
Put that aside for a moment.
    In terms of the La Familia actions and the outcomes from 
that, I think that probably would better fit in a classified 
situation, but we would be happy to brief you on that.
    Mr. Morton. Let me add just a little bit to that. From the 
DHS perspective, ICE was the participant in the operation. I 
think what we can say is many lessons were learned from that. I 
think you will see similar efforts at collaboration in the 
future.
    I don't think the cartel in question is out of business. It 
is a pretty resilient operation, but it took a pretty hard 
blow. And I think you will see that effort is going to be 
sustained. Take it from me as the DHS participant in that, it 
will be. That basic model of trying to focus the full weight of 
the Federal Government on a particular cartel is, I think, a 
winning one and one that we will continue to pursue.
    From our perspective at ICE, and working with CBP, it is 
moving to a more sophisticated strategy in which we are not 
only bringing the criminal investigative and punitive powers of 
the prosecution system to bear, but also the fairly robust 
civil authorities that the Department of Homeland Security 
has--namely in the form of CBP and ICE--to detain and remove 
gang members and other individuals who are associated or 
related with those families and drug trade. But again, we may 
not actually have a criminal case in this country.

                        BORDER STILL NOT SECURE

    Mr. Calvert. One point I want to make is every day there 
seems to be something that I read in the local newspapers about 
violence in Los Angeles, especially in Southern California, 
certainly throughout the southwest United States: murders, 
kidnappings, arrests, especially Phoenix. Now we have pushed 
that border problem down, it seems, into Phoenix.
    But the point I want to make, I think based upon public 
reports, I think there has been, what, 25,000 deaths in Mexico 
related to the drug trade in the last, say, 3 or 4 years, and I 
don't know how many deaths in the United States because of the 
drug trade, that is attributable to that. It is a significant 
problem, not to mention the number of people that are being 
hooked on methamphetamine, the social problems, the cultural 
problems that are associated with that, the problems we have 
with our law enforcement throughout the United States today 
because of this drug.
    I think that this border has not been fixed yet. I don't 
think anyone here would say that it has been fixed yet. We are 
still getting a significant amount of methamphetamine across 
this border, not to mention the human trafficking that goes 
along with it.
    So I have a couple of follow-up questions, if we have any 
further questions, Mr. Chairman.
    Mr. Price. Thank you, Mr. Calvert.
    Mrs. Lowey.

                      ORIGIN OF WEAPONS IN MEXICO

    Mrs. Lowey. Thank you very much, Mr. Chairman.
    Earlier this week, former CBP Commissioner Bonner argued 
that the U.S. should aggressively investigate U.S. gun sellers 
and reinstate the assault weapon ban to better secure the 
southwest border. While I happen to question why he did not 
publicly fight to make these changes during his tenure as 
commissioner, I commend him for speaking out on this 
commonsense issue.
    We certainly cannot allow loopholes to be the means for 
Mexican drug cartels to operate. I understand that firearm laws 
are largely under the purview of the Department of Justice, but 
tens of thousands of DHS personnel risk their lives to protect 
the border.
    Assistant Secretary Morton, Commissioner Ahern, would 
reinstating the assault weapons ban better enable your agencies 
to combat drug cartels?
    Mr. Ahern. I think we will go in the order since I served 
under Commissioner Bonner and had the pleasure to do so. I did 
not have an opportunity to see what was the rationale behind 
Judge Bonner's position on that. And it would be reckless for 
me to try to speculate what his thinking was on that. But I 
think on the flow of any type of illicit asset, there needs to 
be control, there needs to be more than just the enforcement 
control. So is there a need for some regulatory oversight? I 
think that needs to be studied very thoughtfully. I know it is 
a very visceral issue in this country.
    Certainly nobody wants to promote or facilitate the flow of 
weapons across the border into Mexico. I think one point we 
need to study is--and I think we talked about this back in the 
springtime--an often-used statistic that I don't believe is 
completely accurate because I don't think it has been fully 
talked about: 95 percent of the weapons that are found in 
Mexico originate in the United States. I think that if the full 
statement is articulated, it would say 95 percent of the 
weapons that are recovered and entered into the weapons tracing 
database can be traced back into the United States. But that 
may not account for the whole universe of weapons that make 
their way to Mexico. So I think we need to study the issue in 
its total before we make----
    Mrs. Lowey. Where are you suggesting the ones that aren't 
registered are coming from? Someplace else?
    Mr. Ahern. I think there is an opportunity to discuss that 
in greater detail, after you take a look at what may be coming 
through the south of Mexico, up through Central America, or 
even coming in through the maritime ports from other countries 
potentially and Asia.
    Mrs. Lowey. Well, yes, I would love to hear from Mr. 
Morton.
    Mr. Morton. I think there are weapons going into Mexico 
from places other than the United States--there is no question 
about it--and along the southern border in particular. Mexico's 
southern border is a strong concern of the Mexicans, and 
something that we are actually working with them on with ATF 
and ICE.
    But, you know, I do think it is critical that, aside from 
the domestic issues concerning weapons here in the United 
States, we at CBP and ICE work with ATF and the Mexicans to 
stem the flow of illegal weapons to Mexico. There is no 
question that the flow of illegal weapons is something negative 
that fuels the problems we face from the cartels. And it is 
something that I personally am paying a great deal of attention 
to.
    The Acting Director of the ATF, Ken Melson, and I are 
longtime colleagues, and we were prosecutors together. And he 
and I meet regularly on this not only to sort of address some 
of the institutional differences between our two agencies, but 
to try to come up with a rational and aggressive plan with the 
Mexicans.

                         AMEND FEDERAL GUN LAWS

    Mrs. Lowey. Let me just clarify the record. According to 
GAO, 87 percent of firearms seized by Mexican authorities and 
traced in the last 5 years originated in the United States, and 
68 percent of those weapons were manufactured in the United 
States. And officials identified three key challenges with 
Federal gun laws: First of all, restrictions on collecting and 
reporting information; a lack of required background checks for 
private sales; limitations on reporting requirements for 
multiple sales.
    So frankly, it is an outrage, in my judgment, that our gun 
laws hinder the ability of Federal agencies to protect the 
public. So I just wonder, I would like your judgment, would 
amending Federal gun laws to allow Federal agencies to better 
collect information on sales, which in no way inhibits law-
abiding Americans to exercise their Second Amendment rights, 
reduce the level of violence along the southwest border?
    Mr. Ahern. I would say first, again, the issue of studying 
amending gun laws needs to be fully and thoughtfully considered 
before a determination is made. And I think that I would be 
presupposing that discussion by offering my thoughts on it. I 
think with any enforcement strategy, you have to have a 
regulatory provision and enforcement provision and other 
sanctions.
    But as far as reducing violence, we have not necessarily 
seen a lot of the weapons first moving across the border, even 
though we suppose that there probably is. We have actually had 
sustained efforts since this year in March. Even though we have 
seized close to $23 million in currency going out, we have seen 
probably less than 200 weapons that we have actually seized. 
Now, certainly every weapon we take out of the hands of people 
going into Mexico is a bonus, and also I should say it is 
illegal to transport firearms into Mexico. That is another 
sanction that the Government of Mexico has. But we need to 
thoughtfully consider the entire supply chain of the movement 
of weapons into Mexico.
    Mrs. Lowey. Let me just say, and I know my time is up, 
while we are thoughtfully considering it, people are dying. And 
my colleagues got so excited about your responses, they are all 
giving me additional information: 39 percent of the weapons 
seized came from Texas, 20 percent from California, 10 percent 
from Arizona. And my other colleague offers this information--I 
assume it is a good source--that grenades come from the South, 
machine guns and assault weapons come from unregulated gun 
shows in the United States.
    So let me just say this. Many of us are very concerned. I 
was in Mexico several months ago. And I think the President is 
just working so hard trying to make a difference. I hope we are 
doing whatever we can to stop this violence, stop the loss of 
life, and that we don't just dance around this gun issue but do 
what is really essential.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Mr. Farr.

                   TACKLING SOUTHBOUND FLOW OF DRUGS

    Mr. Farr. Thank you very much, Mr. Chairman.
    I think that this last dialogue indicates how much the 
border is really two-sided, and that we seem to focus solely on 
one side, forgetting, one, that the demand for all that drugs 
that are coming into the United States is on our side of the 
border. Two, as was just indicated, an awful lot of the weapons 
that the cartels are buying are coming from the United States. 
And three, the money that is made from the sales of drugs are 
coming from the United States.
    And I would hope, Mr. Chairman, perhaps in the next hearing 
on this border, I think it is a terrific hearing, I hope 
perhaps we could have some Mexican officials here indicating 
what they see as the concerns. Remember, they have another 
border that is just--even more problematic for them where their 
resources are, which is the Guatemalan border, and we don't 
give them any credit for what they do to stop all of those 
things from moving north by being able to stop in Guatemala. 
And I sense it is probably they can't give as much resources as 
we would like to the Mexican border.
    I have a follow-up question on the guns, Ms. Silver, and 
perhaps for Mr. Morton, is what role does ICE play in reducing 
the southbound flow of weapons? Do you see as a central 
challenge--or what do you see as the central challenge to 
eliminating that illegal flow? And if you were given the 
authority and responsibility other than ATF, would you execute 
a program to eliminate this? How would you execute a program to 
eliminate the southbound flow?
    Mr. Morton. Well, I think the effort to tackle the 
southbound flow of weapons needs to occur on several levels. 
First and foremost, ATF and ICE in particular need to much 
better coordinate their efforts. And that is something that I 
have worked on a lot since I have become Assistant Secretary. 
And as you may know, we signed a new memorandum of 
understanding with ATF to try to respond to that exact 
question.
    Second, we need to work very closely with CBP on outbound 
inspections, actually looking for weapons going south. We would 
provide the investigative support to what CBP is doing in the 
way of inspections and interdictions. And then, very 
importantly, we have to work very carefully and closely with 
our Mexican counterparts because as Commissioner Ahern noted, 
we are not seizing yet the level of guns that the Mexicans are 
discovering on their side of the border, and they are 
discovering some very significant caches.
    And one of the things that I have worked on when I have 
been to Mexico the three times in the 6 months that I have been 
Assistant Secretary--I am going to go again here shortly--is to 
work with the Mexican military and with Secretaria de Seguridad 
Publica and the Procurador General de la Republica so that we 
can have a much closer relationship and more immediate access 
to the weapons caches that are seized and so that we can work 
hand in glove with ATF to trace those weapons--a significant 
portion are going to be traced back--and we can investigate and 
prosecute those people either in the United States or in 
Mexico.

                 GIVING EQUIPMENT UNDER MERIDA PROJECT

    Mr. Farr. I understand that our Merida project, we are 
supposed to be giving them a lot of equipment, technical 
equipment, and that equipment is not arriving, it is not 
getting there. Would that be helpful in this totality of----
    Mr. Morton. I will let Commissioner Ahern speak to the sort 
of technical equipment. I will say, under Merida for the 
trafficking, one of the key things, there is funding for a 
vetted unit that we at ICE are doing, and that is actually 
quite far along. And we have selected a number of the officers, 
and we have to go through the final polygraph training. And 
that is fully funded by Merida. And I am happy to see that 
Merida is doing that.
    I am not aware of a lot of technical equipment focused on 
arms trafficking, but rather----
    Mr. Farr. Not just arms trafficking.
    Mr. Morton. The helicopters and the inspection equipment.

                          DEPLOYMENT OF BESTS

    Mr. Farr. The issue of the multiagency cooperation along 
the border, essentially we have 17 of the BEST locations. What 
is it going to take to deploy these along the entire southwest 
border?
    Mr. Morton. Well, we have 10 BESTs now on the southwest 
border. We are considering, as we speak, using the enhancements 
that were provided by this committee expansion at number of 
notable possibilities: Houston, San Antonio, other places along 
the border. We also obviously have the seaports and along the 
northern border.
    Mr. Farr. So of your routes, the Pacifico route is probably 
the best staffed and up to gear, but what I understand, the 
Centro route, the Golfo route and the Chiapas route are not up 
to the sophistication of the Pacific route?
    Mr. Morton. Yeah. And we need to locate those additional 
places along our border that make the most sense for disrupting 
the flow but also to work closely--one of the key things about 
BEST is it is not only a domestic partnership. The Mexicans are 
actually assigning people to the BEST. We have five SSP 
officers. The Colombian National Police just assigned three. 
Mexican Customs just agreed to assign people. So we are moving 
to that. And part of that dialogue is going to be working with 
the Mexicans to get their perspective on just the question that 
you are raising about the flows, you know, where should we 
place a BEST to best----
    Mr. Farr. Do you need additional resources to do that?
    Mr. Morton. I want to get through the enhancement that we 
just got, and then I think I would give you an answer once I 
have a good plan for you and we have spent that properly.
    Mr. Farr. Thank you.
    Mr. Price. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. The issue of resources are very 
important. And we have different programs that we work or we 
use, and one, the Border Enforcement Security Task Force, that 
I think was created in 2006, and there are about 12 of them 
throughout the country.
    I think the strike force concept works a lot. If you look 
at our JIATF, really run, I guess, by the FBI, but it is every 
agency, ICE, and I mean every one, and that strike force 
concept is a team concept.
    Now, I understand there was a conference just recently in 
San Diego about really how is BEST doing, how is it operating, 
what do we need to do. Can you tell me what came out of that 
conference? And then I want to get into what BEST is doing, 
what resources they need, and whether you think it is working 
on the border. It is to all three of you, because you all can 
answer.
    Mr. Morton. Yes, sir. First of all, I agree with your basic 
premise on the task forces, and the concept of BEST is exactly 
that along the border and focuses specifically on cross-border 
crime by organized criminal syndicates. And you are absolutely 
right about the Joint Interagency Task Force South (JIATF). And 
ICE is the second largest contributor to the JIATF behind only 
the FBI itself.
    Mr. Ruppersberger. You also have State and local, the whole 
thing.
    Mr. Morton. The whole thing.
    Mr. Ruppersberger. And also intelligence gathering and 
analysts, too.
    Mr. Morton. And the BEST model adopts exactly that 
approach. And we have State, local and, as I just mentioned, 
international partners--Canadians, Colombians--on our BEST. We 
have a total of 17: 10 along the southwest border, 3 along the 
northern border, 3 in seaports and, for the first time, 1 in 
Mexico City, funded by Merida. And the idea is to have 
something akin to the JIATF immediately on the border, focused 
with agents, Border Patrol agents, sheriffs, analysts, you 
know, all the people that we need to go and focus on the 
illicit movement of people, money, arms and drugs.

                        DEPLOYMENT OF BEST CONT.

    Mr. Ahern. Let me add that I had the opportunity to go out 
and speak at the BEST Task Force conference in San Antonio this 
summer, and I will basically describe what I talked to the 
group about. And I think it describes the enforcement wheel, 
which I think you get the benefit of by having the BEST concept 
where you have the interagency components. It doesn't 
necessarily begin with an investigation or a piece of 
intelligence or interdiction; it could be any number of those 
things. But it needs to continue to lead into a full cycle of 
that enforcement wheel.
    So we have been the direct beneficiaries of participating 
in the BEST Task Force to focus our interdiction efforts at the 
border, particularly southbound, for some of the money seizures 
but also for inbound drug seizures. That is the benefit of 
being intel- or investigative information-driven but also, as 
far as the ability to exploit the seizure or arrest that occurs 
at the borders, being able to hand it off to the BEST Task 
Force to take it from a Laredo, Texas, to an Oklahoma, which is 
one of the examples that occurred several months ago as well. 
So it gives you the full capability to exploit the fullness of 
all the law enforcement assets that are collocated together.

                             BORDER FENCING

    Mr. Ruppersberger. Let me ask you this, too. This was a 
controversial issue that became political, the issue of the 
fence or wall on the border. If you look at Israel as an 
example, Israel had a significant decrease in terrorist attacks 
in their wall along the border. Now, I know you can't build a 
wall like the China wall, but from a resource point of view, 
from a law enforcement point of view, do you feel that the wall 
and the fence does work or does not work, and should we put 
more resources into that type of resource?
    Mr. Ahern. We have 640 miles of tactical infrastructure 
fencing built along the southwest border, a combination of 
pedestrian fence and vehicle fence, depending on where the 
fencing is located. That has been a huge support for us. Even 
though we talked at the beginning of the hearing about the 
apprehensions going down 23 percent between the ports of entry, 
and some may argue that is because the economy is down in the 
United States, I would argue that a significant amount of that 
enforcement success has been a result of building that tactical 
infrastructure. Now we can control the flow a lot better than 
we did before.
    I would also say that certainly the addition of assets and 
technology brings about additional capability as well. The 
tactical infrastructure cannot stand alone, though. And that is 
why we need to overlap it with technology to be able to see 
what is coming toward the infrastructure. Also, people, our 
assets, still need to be there, to be able to respond to it.
    We see a significant result of success from the deployment 
of the fencing. And also, as far as we believe, because we have 
reduced the number of apprehensions for illegal entries between 
the ports of entry, that has been one of the reasons we have 
seen the surge in the effectiveness of our narcotic seizures 
between the ports of entry.
    Mr. Ruppersberger. Okay. Do I have any more time?
    Mr. Price. Very little. Real quick.
    Mr. Ruppersberger. The resources of maybe the NSA and some 
of the things that we do in the Middle East, it seems to me if 
we put a small percentage what NSA does to support the 
warfighter, a lot of the information and intelligence that we 
get to identify the targets. Do you feel that if we could put 
more of an emphasis, including UAVs or overhead architecture, 
that we could do a lot more in the border protection against 
drugs or--more drugs, I guess, than any issue.
    Mr. Ahern. I would say we could always use additional 
capability. Of the five UAVs we currently have deployed, four 
of them are on the southwest border, and one is up in the 
northwest Great Plains. And we have, I think, two more coming 
on delivery over the next several months. That is going to give 
us some capability. If you want to talk further about the 
intelligence capability or very specific details, we would be 
happy to have a further discussion about some of the issues.
    Mr. Ruppersberger. I want to thank you for your service. 
You did a great job.
    Mr. Price. Thank you very much.
    Mr. Culberson.

                          OPERATION STREAMLINE

    Mr. Culberson. Thank you, Mr. Chairman.
    I really appreciate all of you all being here. And I wanted 
to ask, if I could, Commissioner Ahern about specifically what 
we have seen in Texas work so well, Operation Streamline, that 
my good friend Ciro Rodriguez, Henry Cuellar, have worked with 
me with the support of this subcommittee.
    I want to thank Mr. Rogers, our Chairman Mr. Price, and the 
committee members, which is enforcing existing law, straight-up 
common sense.
    Actually, Dutch, you know, you need the wall in some 
places, but there is nothing better than a uniformed law 
enforcement officer using their good hearts and their good 
judgment and existing law to, as they do in Del Rio and the 
Laredo sector and in the Yuma sector, arrest everybody, with 
zero tolerance. And I say everybody, they are obviously not, 
you know, women and children, they are using good judgment.
    But the program has been an immense success, hasn't it, 
sir? And if you could talk to us about it. And we are trying to 
get it expanded into the Rio Grande Valley next. If you could 
talk about the success of Streamline to the committee and 
getting it rolled out as soon as possible into the Rio Grande 
Valley.
    Mr. Ahern. Right. And thank you for allowing me the time to 
pull some numbers so I can give you some specific answers here.
    Certainly when you take a look at basically having a zero-
tolerance approach to violations, that becomes a significant 
consequence to smuggling attempts, particularly by some of the 
individuals that may not have the largest of criminal intent to 
try to gain entry into the United States.
    Mr. Culberson. And you have got the support of the local 
community.
    Mr. Ahern. We have a tremendous amount of support from the 
local community because that is where a lot of this illegal 
activity occurs. But we have to be able to have a prosecution 
and potential incarceration as a consequence and as another 
deterrent for smuggling. So in the Del Rio sector, where it 
began, in the last fiscal year, we had more than 8,000 cases 
that were prosecuted through Operation Streamline. Yuma sector 
had 1,800. For the Laredo sector, we actually had more than 
10,000, almost 11,000, 10,727 to be exact. We implemented 
Operation Streamline in the Rio Grande Valley toward the latter 
part of fiscal year 2009, and we got to 1,572. So we look 
forward to continued improvement going forward. Tucson sector 
had 14,404, and we are going to look to continue to expand it 
through El Paso and other locations where we don't have it.

                           DROP IN CRIME RATE

    Mr. Culberson. In particular, I wanted you to bring to the 
committee's attention, if you would, sir, confirm the drop in 
the crime rate overall. In the Del Rio and Laredo sector, the 
numbers we have from the Border Patrol is we have seen--and 
from the sheriff there locally--a 76 percent drop in the crime 
rate, Members. In the Del Rio area, Ciro, illegal crossings 
have dropped by 52 percent. And you have also seen a huge drop 
in the crime rate in Laredo as well. Isn't that right?
    Mr. Ahern. Those would be accurate.
    Mr. Culberson. So the local community really supports this, 
Mr. Chairman. And I would certainly recommend it to the 
committee as an initiative that we need to continue to support. 
It is a straightforward, commonsense way to deal with this 
terrible problem. And that is just uniformed--in addition may 
be a wall in some areas, but the best wall is a wall of 
uniformed law enforcement officers using their good hearts and 
their good judgment to enforce existing law. Is that an 
accurate statement?
    Mr. Ahern. That is. And I would just add that there is no 
initiative without its challenges as well, but certainly having 
limited capacity with prosecutors has to be examined at all 
levels, and certainly as far as the capability to house some of 
these individuals to serve their sentences.

                 THRESHOLDS FOR DETERMINING PROSECUTION

    Mr. Culberson. And in the limited time that I have got, I 
want to mention also, apparently, Mr. Chairman, also in the 
Tucson sector they are still releasing everybody. As far as I 
know, they haven't changed the policy. But if you are captured 
by the Border Patrol with less than 500 pounds of dope in the 
Tucson sector, you have a good chance of being at home in time 
for dinner, and you will not be prosecuted. It is bizarre. But 
they turn everybody loose in Tucson. I have been there, and it 
is amazing. They turn almost everybody loose in Tucson and 
arrest almost everybody in Del Rio and Laredo. The crime rate 
drops in Texas, and in Tucson it is like a superhighway. 
Reasonably accurate?
    Mr. Ahern. That is very accurate. Under the previous U.S. 
attorney that was in the Tucson area, there was that 500-pound 
threshold.
    Mr. Culberson. Have we changed that, I hope?
    Mr. Ahern. There has been a new U.S. attorney assigned, and 
we look forward to perhaps revisiting some of those thresholds. 
We have had a lot of dialogue about it, and we are very 
optimistic.
    Mr. Morton. If I could add to that, Mr. Congressman, there 
has been a change there. There is a new U.S. attorney, Dennis 
Burke, who has a different view of this matter. I think you 
will find that the thresholds are going to come way down. In 
the pilot project at Nogales that I mentioned in my oral 
testimony, we are trying to avoid the very situation that you 
described, and the Mexican authorities are willing to prosecute 
some of them as well.
    Mr. Culberson. Thank you.

                TERRORISTS APPREHENDED BY BORDER PATROL

    Last question. Who are the three terrorists the GAO said 
that Border Patrol apprehended? On page 18 of the GAO's report 
in August on the Border Patrol, it says that CBP, Border Patrol 
reported in fiscal year 2008 there were three individuals 
encountered by Border Patrol at southwest border checkpoints 
identified as persons linked to terrorism. Who were they, and 
what terrorist organizations were they linked to?
    Mr. Ahern. I would be happy to provide the detail outside 
of the open hearing.
    Mr. Culberson. Okay. Thank you.
    Mr. Price. Thank you.
    [The information follows:]

    Rep. Culberson--Please provide the names and organization 
links of the terrorists CBP apprehended in FY 2008 and 
identified in a 2008 GAO report.
    Response: The three individuals encountered in 2008 (not 
apprehended) were at the time listed in the Terrorist Screening 
Database (TSDB). Two of those individuals are no longer watch-
listed. The third individual has historical links to the Irish 
Republican Army. Additional information on this individual is 
classified and may be shared with the Committee separately.

    Mr. Price. Mr. Mollohan.

              BUDGET COORDINATION WITH JUSTICE DEPARTMENT

    Mr. Mollohan. Thank you, Mr. Chairman.
    Gentlemen, welcome to the hearing. As your respective 
testimonies reflect, the additional resources directed towards 
ICE and CBP programs have significantly improved the crime-
fighting effectiveness along the southwest border. I want to 
congratulate you for that. The increased effectiveness is 
indicated by increased arrests, captures, prosecutions, and 
imprisonment. Those successes result in an increased workload 
on Justice Department agencies. Thus, I am wondering is the 
Department of Homeland Security working with the DOJ to 
coordinate budget requests?
    Mr. Morton. You are exactly right. There is a direct 
correlation between the increase in resources and the increase 
of work at ICE and CBP for the work of the Department of 
Justice. And it is not just in a criminal context, it is very 
much in the civil context, too, because all of the 
administrative removal hearings are conducted by the Department 
of Justice through the Attorney General's authority. So the 
short answer to your question, sir, is yes.
    We actually had our first conference about 2 months into my 
tenure as Assistant Secretary where we invited the Executive 
Office for Immigration Review to look at exactly this issue and 
how we can go forward in a way that is coordinated and 
thoughtful, and we don't just increase one place without 
providing for either immigration judges or, as the commissioner 
mentioned, you know, additional Bureau of Prisons space, 
additional marshals resources.
    Mr. Mollohan. You are describing the problem. I am 
interested in the solution and what your agencies are doing to 
solve that problem, because there have been concerns expressed 
regarding the lack of coordination between ICE and DOJ.
    Mr. Morton. The solution is just as you suggest; it is 
coordination where we haven't in the past.
    Mr. Mollohan. Are you doing it?
    Mr. Morton. It is ongoing, and I am personally involved in 
it.
    Mr. Mollohan. Give me some specifics on that. Who is 
interfacing with whom, and at what levels, and what progress 
are you making?
    Mr. Morton. My staff is directly interfacing with the 
Executive Office for Immigration Review on the civil side. And 
I have been meeting with the Assistant Attorney General for the 
Criminal Division on the criminal side and have been putting 
the issue squarely on the table. And there is a recognition 
that we need to start doing this thoughtfully. And I think you 
will see as we go forward, at least on my end, you know, where 
there is such a direct correlation between an increase in ICE 
resources, that I will be pushing this myself.
    I come from the Department of Justice. I was a Federal 
prosecutor my entire career before becoming the Assistant 
Secretary.
    Mr. Mollohan. So you understand how it backs up.
    Mr. Morton. I do indeed.
    Mr. Mollohan. So those discussions are ongoing. And is the 
information that is exchanged going to be reflected in the 2011 
request from the respective agencies?
    Mr. Morton. I can't speak to that right now. You know, why 
don't I take that back as one of the things that we can----
    Mr. Mollohan. Get that for the record. That would be great.
    Mr. Morton [continuing]. And see where we are.
    [The information follows:]

    Rep. Mollohan--How does/can ICE coordinate future budget 
requests with DOJ when it comes to SWB enforcement?
    Response: ICE management coordinates with DOJ from both 
civil and criminal perspectives. Regarding civil enforcement, 
ICE provided DOJ's Executive Office for Immigration Review 
(EOIR) with projections of increased criminal alien cases 
resulting from new ICE initiatives, which EOIR was able to use 
as part of its fiscal year 2010 budget proposals for an 
increase in the number of immigration judges. In summer 2009, 
ICE Assistant Secretary John Morton met with EOIR to discuss 
the impact of SWB enforcement. ICE is already taking steps to 
coordinate its future forecasts of workflow with EOIR. 
Specifically, the Secure Communities program is establishing an 
Internal Working Group (IWG) encompassing the entire life cycle 
from the `Notice to Appear' stage to the `Final Order' stage. 
The IWG will monitor and provide interagency coordination for 
the following initiatives:
    <bullet> Optimization of Alternatives to Detention (ATD)
    <bullet> Use of Stipulated Removals and Deferred 
Enforcement
    <bullet> Alignment of Funding Between DOJ and DHS
    <bullet> Collaboration between USCIS and EOIR
    <bullet> Efforts to Enhance EOIR Docket Efficiency
    The IWG will review goals and objectives related to each 
initiative cited above and ensure consensus in terms of roles 
and responsibilities, resolution and documentation of any 
issues, and collaborative decision-making and communication. An 
executive committee, consisting of prinicipals from DOJ, ICE 
and CIS will be convened as needed to facilitate approvals or 
achieve consensus.
    The IWG is being established as a result of the interagency 
sessions held in July 2009. The IWG charter is currently being 
reviewed by the participating agencies with an expected `stand-
up' date of early 2010.
    Regarding criminal enforcement, ICE's Assistant Secretary 
meets regularly with the Deputy Assistant Attorney General in-
charge of the criminal division; ICE will continue to work with 
DOJ to ensure federal law enforcement priorities are aligned. 
ICE appreciates the benefits of coordinating enhancements 
between DHS and DOJ partners in a way that maximizes resources 
such as agents, assistant U.S. attorneys, and deputy U.S. 
marshals. For example, if ICE requests additional enforcement 
positions along the southwest border that will significantly 
increase the number of persons being charged criminally, DOJ 
should request resources necessary to support the increased 
workload.

    Mr. Morton. I will tell you it is a work in progress, but 
it is something that we are focused on.

                 CORRELATING BUDGET INCREASE TO SUCCESS

    Mr. Mollohan. It is really important. It would be very 
helpful to Congress as we consider these budgets to more 
accurately fund these various accounts.
    Your agency is going to receive a significant increase in 
funding this year for your various southwest border activities 
as a consequence of those increases. In other words, if you get 
an increase can you project your agency's crime fighting 
statistics? Border Patrol apprehensions--will that result in a 
corresponding increase in arrests? Do you project statistics 
like that, which, if shared with other departments and 
agencies, could be very helpful in planning and implementing 
their efforts?
    Mr. Ahern. We do, probably not to the level of precision 
that you prefer, and I think we do need to do a better job on 
some of our metrics as a whole. But we do have figures that we 
put together as we add more to the three components of our 
strategy: tactical infrastructure, fence; technology; and more 
personnel, the additional miles of operational control we gain 
over the border. So we do have a formula that we can provide in 
detail.
    I think one of the other things, too, is we have to also 
acknowledge that success is not only measured in additional 
apprehensions or additional seizures. We should see that spike 
occur as we deploy and infuse the areas with more personnel. 
But once we gain that level of operational control, we should 
start to see those numbers diminishing. And often that looks as 
though you are not doing as good because the apprehensions are 
down 23 percent, as they were this past fiscal year. So we need 
to make sure that we are looking again at the fullness of the 
argument to make sure we recognize as far as investment of 
resources, particularly in our world it is not necessarily 
about catching more bad people----
    Mr. Mollohan. No, no, I know that. I am just really 
interested if there is a correlation between the amount of 
money. And I guess we are talking about short term here, 
because we are talking about the next fiscal year.
    Mr. Ahern. Absolutely.
    Mr. Mollohan. Do you anticipate an increase, and can you 
quantify it based on the increase in the amount of 
appropriations that you are currently getting? That is kind of 
the calculation that I would be looking for.
    Mr. Ahern. We will provide that. Again, it probably would 
not be to the level of detail to your satisfaction, but those 
are some of the things we have to consider----
    [The information follows:]

    Rep. Mollohan--What is the formula used by CBP to determine 
the level of funding needed to gain increased operational 
control of the border?
    Response: While there is no formula to determine the level 
of funding needed to gain increased operational control of the 
border, the Operational Requirements Based Budget Process 
(ORBBP) provides a common mechanism for the sectors to identify 
sector requirements and formulate budgetary requests. Through 
the ORBBP process, sector Chief Patrol Agents and their subject 
matter experts analyze threats, risks, and vulnerabilities 
(TRV) and evaluate the various resources to best address these 
TRV. The proper mix of resources and budgetary requirements 
needed to achieve operational control of an area are documented 
in sector operational plans. These requirements are then 
transmitted electronically to Border Patrol headquarters where 
they and validated and prioritized for available funding.

    Mr. Mollohan. You can make judgments about it.
    Mr. Ahern. Yes, sir.
    Mr. Mollohan. I ask that it will be to the level of detail 
that you can do it. That is all anybody can ask.
    Mr. Chairman, am I out of time?
    Mr. Price. You are.
    Mr. Mollohan. All right.
    Mr. Price. Thank you very much.
    Ms. Roybal-Allard.

               COORDINATION WITH LAW ENFORCEMENT AGENCIES

    Ms. Roybal-Allard. I want to go back just a little bit to 
the issue that was raised by Ms. Lowey, and just for the record 
cite that the statistics that she was reading in terms of where 
guns were seized in Mexico, actually where they are purchased--
Texas, 39 percent; California, 20 percent; Arizona, 10 
percent--actually came from a GAO analysis of ATF data. And in 
that same GAO report, some of the things that they highlighted 
was--with regards to the problems with stopping the flow of 
guns, was that efforts have been undermined by poor working 
relationships between ICE and the Bureau of Alcohol, Tobacco, 
and Firearms. And the report also states that the two agencies 
do not consistently and effectively coordinate their efforts. 
They lack clear roles and responsibilities. Failure to 
communicate has resulted in duplicate initiatives and confusion 
during anti-gun-smuggling operations.
    And I think to some degree you have answered some of the 
concerns that have been raised here, but my question is the 
issue of what is happening in Mexico and our part in the United 
States to assist Mexico, this is something that is not new. I 
mean, this is something that just didn't happen 6 months ago or 
a year ago. It has been quite a while. Why is it that it either 
takes a GAO report to make in this case DHS and others do what 
they are supposed to do in the first place? What takes so long, 
particularly since it jeopardizes--the lack of doing so 
jeopardizes the very mission that you all, you know, have to 
fulfill?
    Mr. Morton. I don't have a great answer to your question 
other than to say my entire career has been in Federal law 
enforcement, and unfortunately, turf rivalries are part of the 
beast. And I take a dim view of them. I said that in my 
confirmation hearing. I take a very dim view of turf rivalries. 
That frustrated me as a prosecutor. And all I can say is in the 
6 months that I have been the Assistant Secretary, I have taken 
fairly aggressive efforts to reduce those rivalries as much as 
I can. The first thing I did was to sign a new Memorandum of 
Understanding with Michelle Leonhart, who is the acting head of 
the Drug Enforcement Administration, and a second one with 
Alcohol, Tobacco and Firearms. And I was very cognizant of the 
General Accounting Office report that you just referred to.
    And I will tell you it is a work in progress. These are big 
institutions. They have long histories. They have strong 
institutional interests. But I find that if you have people of 
goodwill at the top who are willing to try to make a 
difference, they can. Plus things like this hearing, the focus 
on the challenge in Mexico, and the knowledge that this isn't, 
you know, some passing concern, this is a serious concern, 
really bring us together.
    We have to get this right, and so I am focused on it from 
ICE's perspective. And I have had a pretty good response, as 
you can see, from DEA and ATF.
    Ms. Roybal-Allard. So are you basically saying, then, that 
the culture that exists, which over years I recognize has 
changed with various departments, and I recognize that there is 
an effort, but that within agencies the culture is agency 
first, U.S. second? I mean, given that report after report says 
that this lack of coordination, lack of cooperation is 
jeopardizing this, whether we are talking about homeland 
security issues, terrorists, in this case guns, we have been 
hearing this for 8 years. And I keep hearing it is a cultural--
cultural thing. What will it take to get the agencies to 
recognize that the interests of the United States and the 
security of the United States takes priority over the interests 
of who gets credit for what within the agency?
    That is somewhat rhetorical. You know, I don't expect that 
you are going to answer that, but it is very, very frustrating 
to have been on this committee since it started and keep 
hearing the same thing over and over and over again.
    Mr. Morton. Let me just say two quick things. One I 
understand your frustration. Two, I wouldn't say that anyone at 
the law enforcement agencies sets the United States second. I 
will say----

            COORDINATION WITH LAW ENFORCEMENT AGENCIES CONT.

    Ms. Roybal-Allard. No, maybe they need to start looking at 
that in practical terms, that is exactly what they are doing 
through these turf wars if it is jeopardizing, as we hear over 
and over again, the missions that you all have.
    Mr. Morton. The final thing I would say is, although I 
won't pretend to say that we are where you want us to be and we 
should be, a fair amount has, in fact, happened in the last 6 
months. I am actually going to meet with the Deputy Attorney 
General David Ogden tomorrow, and we are talking about this 
exact issue, and again furthering the initial steps we have 
taken with DEA and the ATF. And here you have me at ICE, I am 
personally committed to doing this.
    So I would say stay tuned, stay on top of me, ask me 
questions, write me letters. I am going to be focused on it, 
and I hope that next time you ask me this question, you feel 
better about asking it.
    Ms. Roybal-Allard. Let me just raise one more issue, just, 
please, Mr. Chairman.
    Eight years after now interoperable communications remains 
a serious concern across DHS and border security. Again, there 
is no exception. Secretary Napolitano's Southwest Border Task 
Force reported that local, State, and Federal authorities 
operating in the region often struggle to communicate 
effectively. Again, it jeopardizes efforts, et cetera, et 
cetera.
    I am being told I am out of time.
    Again, we are dealing with the same thing. We talked about 
operability 8 years ago, and here we are again. It is still a 
problem, this same issue. And I will submit this for the record 
so that you can then respond.
    Mr. Price. Why don't we permit a very quick response, and 
then you can elaborate for the record.
    Mr. Ahern. I think clearly there has been substantial gains 
in a lot of the interagency cooperation. I think certainly as 
the new Secretary arrived on January 20th of this year, there 
was a renewed focus, particularly a lot of engagement with the 
state and local efforts. I know that we are renewing a lot of 
our pledges to work cooperatively. And one of the things that I 
would offer, too, that again I am concluding my 33rd year in 
government, and there is often stress that occurs between 
highly competitive organizations. Competition is not 
necessarily a bad thing. From my experience, again, as one who 
actually is involved with the interdiction side, we do look 
forward to receiving a lot of the benefits of investigative or 
intelligence information, but we also want to make sure that it 
is done thoughtfully. And ICE, as our investigative arm, is our 
closest partner, and we look forward to building on a 
relationship we have had for decades.
    It was stated at the beginning here that smuggling going 
back to Alexander Hamilton started in 1789, when the first 
Customs Service was created, and a year later the Coast Guard 
was brought about. So there has always been organizational 
challenges, and I would not submit that those are necessarily 
all bad. They often get characterized poorly in reports, but I 
can tell you from my experience that the system of government 
and agency constructs we have work pretty effectively. There 
are ways that we need to continue to improve, and I think we 
all should be very committed to doing so.

                             OASIS PROGRAM

    Mr. Price. Thank you.
    Let me turn to a matter a couple of you mentioned briefly 
in your oral statements, and that is the efforts that have gone 
on in the past 4 years or so to prosecute a certain amount of 
cases in Mexico of criminals captured in the U.S. Mexico and 
U.S. jointly initiated the OASIS program, the Operation Against 
Smugglers Initiative on Safety and Security. I am not sure who 
came up with that acronym, but that program was launched some 
time ago. And the idea was to accept Mexicans--for Mexico to 
accept Mexicans captured in the U.S. for prosecution in Mexico, 
provided they were charged with crimes against Mexicans.
    I would be interested in your assessment, your brief 
assessment here, and maybe you can elaborate for the record in 
how that program has worked and what kind of leverage it has 
really given us, and whether there is some prospect or any 
consideration of expanding it to address non-Mexicans, to 
address dual nationals. What kind of leverage does this give 
us? Are there drawbacks? But we are looking for more 
prosecutorial resources, obviously, here against the cartels, 
and we would be interested in your assessment of this 
particular item in our arsenal.
    Mr. Ahern. Great. Just a couple of very quick points, and I 
know Mr. Morton would want to elaborate as well.
    The OASIS program actually was the follow-on program to a 
program that was initiated by the Border Patrol as we were 
having our reorganization back in 2003. It was called the Guide 
Identification Prosecution Program (GIPP), where we would 
actually take a lot of those individuals that were not going to 
be prosecuted in the United States.
    And again, going back to the discussion about streamlining, 
there needs to be a consequence for smuggling as opposed to 
continuing to see the repeat violators and the number of 
recidivism efforts that we engage in over and over again. So we 
engaged the Mexican Government to see what we could do to 
actually establish criteria for prosecution in Mexico. The 
criteria was it had to be a Mexican national endangering life 
or potentially moving a Mexican national. Cars, if they are 
coming through the ports of entry in a place like San Ysidro, 
had to be enrolled or actually licensed in Mexico. There is a 
variety of criteria.
    It is not operating at each of the locations along the 
southwest border because, in many of the prosecutorial 
districts, there isn't the capacity to prosecute the cases in 
U.S. courts. So it should not be a goal to take every case that 
we have and actually prosecute through the OASIS program. It 
should be considered where there is lack of capacity or the 
potential consequence could be greater by prosecuting in 
Mexico.
    But the bottom line I would like to leave you all is, 
again, there has to be that additional consequence for 
smuggling, not just the arrest and the apprehension. There has 
to be that follow-on, whether it be through Streamline, 
prosecution through the fullness of the U.S. courts or the 
OASIS program.
    Mr. Price. Mr. Morton.
    Mr. Morton. I am strongly supportive of the concept, Mr. 
Chairman. And that is why CBP and ICE have taken OASIS to the 
next level, and we do the same things for narcotics. Our first 
pilot is in Nogales. We have had our first two cases that were 
sound from an evidentiary purpose but that could not be taken 
for prosecution reasons by the U.S. Attorney's Office have been 
turned over, in coordination with ICE and CBP, to Mexican 
prosecutors, and they are prosecuting both cases.
    And it is important to have a consequence. It is important 
that we have a consequence when the resource issues on our side 
would lead to somebody just walking the streets or getting 
removed. And I think it also helps build the other idea that we 
are trying to push in Mexico, which is institution building, to 
work with the Mexicans to build robust enforcement capabilities 
that lead to criminals going to jail and suffering a 
consequence in Mexico, and not just the United States.

                           MERIDA INITIATIVE

    Mr. Price. Thank you.
    With limited time I want to move on to the Merida 
Initiative, which, of course, is not mainly the responsibility 
of this subcommittee in terms of funding. I do have some 
questions, though, that I will ask you to respond to for the 
record about the the future of that program and the kind of 
funding requests you anticipate.
    Mr. Price. One aspect of this that has come up today, 
though, and I want to raise it, and that has to do with the 
fact that the original concept for the Merida Initiative did 
incorporate Central American governments, as you know, as well 
as the United States and Mexico, in the fight against drug-
trafficking organizations. But the initiative has pretty much 
developed into a bilateral matter and into a two-nation 
program.
    We have heard again today that drugs and weapons 
trafficking from Central America into Mexico remains a major 
threat to those countries and to us. What are possible 
improvements in DHS's efforts to work with Mexican and Central 
American governments to disrupt those trafficking routes? 
Should that original concept of the Merida Initiative be 
resurrected to incorporate Central American governments?
    Ms. Silver. Mr. Chairman, as you note, a bulk of the money 
under Merida has gone to Mexico. And, of course, we are 
focusing on Mexico here today, but if we are really going to 
look at the life cycle of the drug trade and the full networks, 
we do have to look at Central America. We have to look outside 
of just the United States and Mexico.
    There is Merida money, and I will leave it to the State 
Department to go into great detail, but there is Merida money 
going to Central America, and we support the continued efforts 
there. ICE and CBP have been and are involved in some of those 
efforts, and we also have folks on the ground down there.
    Mr. Price. Well, I am aware of that, but I am asking you 
really for your analysis of the challenge we face, and to what 
extent a more intensive effort is required. Of course, we are 
interested in the factual information about what is going on 
right this minute, but we are asking you for an assessment.
    Ms. Silver. I would say that generally we do certainly want 
to focus on Central America. We want to focus on, as I said, 
the entire network, the entire pipeline of the drug trade in 
this case and those transnational criminal organizations which 
are not only present in Mexico but that have arms in Central 
America and our neighbors. We certainly want to focus on that.
    I think the seizure that Assistant Secretary Morton 
mentioned is one example of how we are working to make sure we 
understand and are acting against not just one point in the 
pipeline but really the whole pipeline. But we can always do 
more in that regard.
    Mr. Price. Well, the weapons aspect of this in particular 
seems to involve that pipeline pretty centrally. Is that right, 
Mr. Morton?
    Mr. Morton. It does. And listen, Mr. Chairman, I would say 
that, as to your basic premise, the answer is yes. We 
absolutely need--the challenge is great. We cannot view it as 
simply a challenge that comes from Mexico. It very much 
involves Central and Latin America.

                CHALLENGES IN CENTRAL AND LATIN AMERICA

    We have had some notable successes in Colombia over the 
years. That was a major challenge. It remains a challenge. But 
things like the seizure of the $41 million, which was done in 
very, very close coordination with Mexican and Colombian law 
enforcement, and the fact that a single BEST, which is 
technically on the U.S. and Mexican border, now has Canadians 
and Colombians in it, are very positive signs. Again, I don't 
pretend to say that we are where we need to be. I am just 
saying I agree with you, and there are some initial steps in 
your direction that I think we all share and intend to push as 
leaders within the Department.
    Mr. Ahern. If I might add a couple of observations. 
Certainly I think one of the issues is beyond just providing 
some of the large-scale X-ray systems that are going to be used 
effectively; it has to be part of an overall comprehensive 
plan. It can't just be elements of technology, where different 
things are bought and provided to different countries. It has 
to be part of an overall plan.
    Part of that begins with, you know, what is the assessment? 
And one thing is, to give you specifics between ICE and CBP, we 
did a joint assessment of Mexico's southern border with 
Guatemala. We looked at and between the ports of entry, to be 
able to provide that to the Government of Mexico and then help 
them build the capacity to control, starting fundamentally with 
their ports. You have to begin that fundamental preference of 
establishing functional ports coming from the south to make 
sure they can control the flow of people and things coming 
across that border and then to stretch it out between the ports 
of entry to consider if there needs to be a Border Patrol-like 
component patrolling that border.
    And I would think that, as we move forward, we need to 
learn from some of the mistakes we made in the past during the 
last 2-3 decades. I spent a lot of time in the 1980s doing 
training and assistance programs throughout Central and South 
America and the Caribbean, and it would always be frustrating 
when we would go down and see some of the boats that we 
provided not being fueled or fall into a state of disrepair. 
Or, we would go down and see K-9 teams we trained up here in 
Front Royal emaciated because the food has been redirected for 
other uses. We need to make sure there is a plan, and it has to 
have the appropriate oversight going forward, not just buying 
elements.
    Mr. Price. Thank you.
    Mr. Rogers.

           WEAPONS SEIZURES FROM THE UNITED STATES TO MEXICO

    Mr. Rogers. I want to get back to the weapons a moment. 
Now, on the border this past several months, 6 or 8 months, you 
have seized $30 million of cash, 3.3 million pounds of drugs, 
hundreds of thousands of illegals, and so on. How many weapons 
have you found going from the U.S. into Mexico across the whole 
border?
    Mr. Ahern. Across the whole border, since we began the 
intensified sustain operation in March, we have found less than 
200. I will give you the very precise number. I just don't know 
it off the top of my head. But what we are seeing is a lot of 
the ones and twos. We see occasionally a cache of maybe as many 
as 20 or 30, but for the most part, it is small numbers. And 
one thing I would argue is we are seeing a lot of the currency 
seizures going south when I would have thought we would have 
seen more weapons if they are moving in such----
    Mr. Rogers. You are saying less than 200 weapons?
    Mr. Ahern. Seized at our ports going southbound as part----
    Mr. Rogers. And how many of those are handguns roughly?
    Mr. Ahern. Probably a split of maybe 50 percent or so are 
handguns, and the rest are semiautomatics or fully automatics.
    Mr. Rogers. Fifty percent of the 200. So roughly 100 
pistols and 100 other weapons.
    Mr. Ahern. Right.
    Mr. Rogers. Now, do the Mexicans control their southern 
border and check for weapons coming in from their south?
    Mr. Ahern. That is one of the things that we need to help 
them build the capacity of.
    Mr. Rogers. But they are not doing that now.
    Mr. Ahern. To a very limited degree. And that is why we 
need to help them build a greater capacity.
    Mr. Rogers. And so the weapons that are reported seized in 
Mexico are really the weapons that are going from the U.S. to 
Mexico, which is a very, very limited number. And if you say 
where did those weapons come from that you found going from the 
U.S. to Mexico, where do they come from? Of course you are 
going to say U.S., right?
    Mr. Ahern. Correct.
    Mr. Rogers. Now, for 20 or 30 years Mexico has been 
importing weapons, military sales, over the last 20, 30 years 
across that border on their south into Mexico, correct?
    Mr. Ahern. I believe that is accurate.
    Mr. Rogers. Do you have any idea how many tons of weapons 
have been imported in that fashion over the last few years?
    Mr. Ahern. I would have no idea.
    Mr. Rogers. It is a bunch, isn't it?
    Mr. Ahern. I would have no idea, sir.
    Mr. Rogers. Well, I can tell you it is a bunch.
    Mr. Ahern. Okay.
    Mr. Rogers. A lot more than 200.
    So, you know, the assertion that there is a steady stream 
of huge amounts of weapons flowing from the U.S. to Mexico is 
belied by your checking and finding very few; is that correct 
or not?
    Mr. Ahern. I would submit that if there was the flow that 
is sometimes spoken about, we would have seen more than the 
weapons we have seen going southbound through our sustained 
efforts.
    Mr. Rogers. Now, quickly, your user fees this year are way 
down, correct?
    Mr. Ahern. Yes.
    Mr. Rogers. How far down?
    Mr. Ahern. They could be down as much as $150 to 200 
million, based on the downturn of international travel where we 
collect the fee environment.
    Mr. Rogers. What about the projection for 2010?
    Mr. Ahern. For the rest of this fiscal year, unless there 
is going to be a recovery very soon in this fiscal year, we 
expect it to continue to be about 12 to 15 percent reduction in 
the international air travel.
    Mr. Rogers. What does that do to your operation?
    Mr. Ahern. A substantial impact because, as you know and 
this committee knows, that a lot of that fee money is 
appropriated to our paying for our front-line CBP officers. 
Without that fee money, we would have a challenge sustaining 
the current level we have on board, to be very frank.

                      JIATF ALONG SOUTHWEST BORDER

    Mr. Rogers. I want to thank you all for--the ICE and CBP--
for the BEST organizations on the border. I think that is the 
way to go. However, I would like to see you take that one step 
further, and we have talked about this privately, and that is 
the creation of a thing like the JIATF operation that we have 
for the Caribbean on drug trafficking, where we would have a 
single location on the southern border that coordinated the 
work of all the BESTs and all of the agencies that have some 
jurisdiction or authority on the border, much like we do out of 
the Caribbean operation for JIATF. What do you think about 
that?
    Mr. Morton. Well, we did, in fact, have a conversation 
about this. You are right. And I am a supporter of JIATF, and I 
have been to JIATF South several times. And I agree with the 
basic idea that we need something similar along the southwest 
border, as I told you when we first met. And the real challenge 
for us as a department is what will that look like and what 
will its relationship be to things like the operational task 
forces on the ground, most of which are BESTs. But there are 
also others. There are the High Intensity Drug Trafficking 
Areas and Organized Crime Drug Enforcement Task Force.
    And, as a department, we are looking at this exact issue 
about the need for some sort of centralized intelligence fusion 
center along the southwest border. And obviously, there are 
some questions about its relationship to El Paso Intelligence 
Center (EPIC), which is the Department of Justice's DEA-led 
center in El Paso. And, you know, what I can say is that in the 
abstract there is a lot of agreement with your thoughts, and 
the devil is in how we get there. And we are having those 
conversations now.
    Mr. Rogers. Good. I am glad to know that you are. I think 
it is the way to go, because these cartels, the three or four 
or five cartels, whatever, along that border can't be--the 
fight against them can't be coordinated unless it is truly 
coordinated. And the only way to coordinate, I think, is if we 
have a single place where all of the agencies, be it Justice, 
DHS, military, whatever, are incorporated in one central locale 
so that there is some synergy there. So I really want to salute 
you for that. How can we help you along with that?
    Mr. Morton. Well, I think, keep asking questions, keep 
raising the issue to the forefront. I will say this issue is 
very much being talked about at a senior level in DHS. So I 
think that you would be pleased with the level of conversation 
and thought that is going into the ideas that you raise.
    Mr. Rogers. Any idea of a timetable?
    Mr. Morton. No, I don't. And, you know, I always hate to 
predict anything in the Federal Government in terms of when it 
would actually get there. But I have had several conversations 
with the Commandant of the Coast Guard on this issue. He is 
very focused on it. I am very focused on it. We have a very 
close relationship from an intelligence perspective with CBP. 
We really feel this need of coordination within DHS. And then 
obviously you have to bring in DEA, which has a lot of very 
important information, and ATF, just as we do with JIATF. And 
so there is a lot of momentum behind this, but I would hate to 
predict.
    Mr. Rogers. Any thought being given to making the EPIC 
center--of your agencies joining EPIC?
    Mr. Morton. Actually, we are. CBP is the Deputy Director. 
ICE has a very large contingent with EPIC. And the question is: 
Would EPIC become something like JIATF South, or would there 
need to be something else? And EPIC could either fit into that 
or continue to have its very DEA-centered focus of right now.
    Mr. Rogers. Commissioner Ahern, would you like to----
    Mr. Ahern. I would just offer a couple of thoughts. First 
off, the JIATF South model is an excellent model, and we are 
heavily invested there. And just to comment about the 
investment we have made with getting our P3s back up in the air 
has led to a lot of the identification of movement of drugs, 
large loads, semisubs, go-fast boats moving to the coast of 
Mexico. That has to be a strategy that is left in place so that 
we don't see the movement of the transportation networks 
hitting Mexico and some of the violence that then comes as a 
result of that.

                   JIATF ALONG SOUTHWEST BORDER CONT.

    But one thing I want to articulate before we talk about El 
Paso or EPIC as being the next JIATF, you are looking at a very 
narrow set of threats for JIATF South, and that is the movement 
of aircraft, movement of vessels on the water and deployment of 
the appropriate air and maritime force response and host 
country end game.
    When you are looking at the southwest border, it is far 
more complex than JIATF South. There is a lot of activity that 
goes on by the multiple number of law enforcement agencies that 
have jurisdiction at the Federal, state and local level. That 
does not mean that there is a conflict among the agencies, but 
it is highly complex compared to the very narrow, very 
important threat that JIATF South is performing in the 
Southeast.
    I think there certainly needs to be a better level of 
coordination. Mr. Morton is exactly right. We have had these 
discussions very actively through an established board looking 
into this issue. And we need to make sure, as we go forward on 
it, we are looking at it with the right precision and with the 
right outcome expected.
    Mr. Rogers. Well, I will be asking. The next time we are 
here, we will be talking about this again, and I would hope we 
would have a fairly significant definitive answer.
    Mr. Price. Thank you.
    Mr. Rogers. Mr. Chairman, before I finish, I just want to 
once again thank Jay Ahern for his 33 years of service to his 
country and the government, especially in the last several 
years that we have had the chance to work with him and the 
Department. He has been a real asset to the government and to 
the people of this country.
    And so, Mr. Commissioner, Jay, we thank you for your 
service to your fellow citizens.
    Mr. Ahern. Thank you very much.
    Mr. Rogers. Wish you Godspeed.
    Mr. Price. I appreciate the gentleman offering those 
thoughts, and I want to echo them. We have, over this number of 
years of service at DHS in particular, really valued the chance 
to work with you. You have always been straightforward, 
forthcoming, responsive. And we are indebted to you for your 
service and your substantial contribution to standing up this 
Department as it got underway.
    Mr. Ahern. Thank you.
    Mr. Price. Mr. Rodriguez.
    Mr. Rodriguez. Mr. Ahern, I also want to, just on behalf of 
a grateful Nation, we thank you for your service and what you 
do for all of us.
    Mr. Ahern. Thank you.
    Mr. Rodriguez. Let my quickly identify three areas that I 
wanted to talk about real quickly. The first one is a quick 
recommendation, and I think I have talked to you about it. As 
we deport the criminals--and I am not talking about the ones 
that we were talking about, because those were noncriminals 
that were being dropped off on the other side in Ojinaga from 
Presidio, but the criminals that are picked up from the jails 
and then deported--I think that it would go a long way for us 
to notify the Mexican officials as to where we are letting them 
go and who they are and the types of criminals that they are, 
because it is a pretty substantial number. And so it is 
important for us to get a grip on that. Otherwise, we are going 
to have problems with them later on unless they are aware of 
it.
    Secondly, this is across the board, GAO has reported 
constantly time and time again on a description of the 
situation on the ports of entry and the fact that, you know, 
that it is inadequate. We really need to beef up on Customs. I 
know the Border Group Commission recommended some 5,000 
additional people needed on the ports of entry. We have really 
seen since 9/11, you know, it was gradually increasing. It has 
dropped tremendously now, and those waiting periods do hurt us.

                   JIATF ALONG SOUTHWEST BORDER CONT.

    And I don't have to tell you, I have said this time and 
time again, the terrorists want to hurt us economically. We 
don't need to do that to ourselves, and we are. You know, there 
is no doubt about it. That stimulus money, a lot of it went--
well, the majority of it went to Nogales. Texas didn't see a 
single bit of that. And so I would ask that we really need to 
prioritize those ports of entry and beefing up on Customs, if 
we can make that happen.
    Thirdly, there was agreement with Condoleezza Rice also 
before in December of 2008 as it looks with Canada and Mexico 
as it deals with natural disasters and problematic situations. 
And I know that is maybe under our other cardinal that is here, 
but it is an important issue that we begin to move in that 
direction. It talks about how we can coordinate efforts. 
Because I had a tornado in Eagle Pass where I lost seven lives. 
And it talks about manmade disasters. I just had a major flood 
in the Presidio caused by the dams that let go of the water on 
the Mexican side.
    So somehow, you know, that is a great agreement. We just 
need to put some teeth into it and put some resources into it. 
And maybe it comes from another committee, you know, but FEMA I 
know is one that could be helpful in that area through Homeland 
Security.
    And that particular one also talks about the importance of 
communication with the other side, including Canada; the 
resource deployment; the evacuation; the analysis for risk. And 
so I would ask that you look at that, and mainly, I guess, from 
a FEMA perspective. But, you know, next time I know you will 
probably be coming to us this coming year again, I would be 
asking you where we are at on that particular agreement with 
both Mexico and Canada.
    The other, I just want to--once again want to just thank 
the Chairman for allowing us to do this. And maybe later on I 
would suggest that we get a little briefing on the Canadian 
situation. I was alarmed that on the Canadian side, when we 
went down there, they were telling me that the amphetamines are 
coming, they are just being produced and just coming in on the 
Canadian side. My God, you talk about fences on the southern 
side, we didn't have a single fence there. I mean, even in 
Texas on the roads we had medians with barriers. We didn't even 
have a barrier between the median on the Canadian and the U.S. 
side, not to mention the fact that up here we get stopped 20, 
60 miles up the road. And I know we are going to be going to 
the Vancouver situation down there with the Winter Olympics in 
terms of the plan that you might have there and how we might 
deal with that, Mr. Chairman.
    Thank you.
    Mr. Price. Sounds like a full agenda for the season to 
come.
    Mr. Calvert.

                   AUTOMATIC AND HIGH-CALIBER WEAPONS

    Mr. Calvert. Thank you, Mr. Chairman.
    I have another question, but I am going to go back to the 
weapons just for a second.
    Would you say that the drug cartels' weapons of choice, if 
they could get ahold of them, is the fully automatic weapon?
    Mr. Ahern. I think the weapon of choice is the one that 
creates the most harm.
    Mr. Calvert. Okay. So AK-47, some of the high-caliber 
weapons. The percentage of fully automatic weapons and high-
caliber weapons that you have knowledge of, and obviously that 
is happening in Mexico, what percentage of those do you think 
are coming out of the United States since the--I will just ask 
that question. What percentage of those are coming out of the 
United States?
    Mr. Ahern. Perhaps Mr. Morton wants that, but I wouldn't 
speculate as to a percentage.
    Mr. Calvert. Would the accurate number be close to zero?
    Mr. Morton. I really don't know the answer to that 
question. I would ask the ATF.
    Mr. Calvert. Okay. How many have you seized as they come 
across the border?
    Mr. Ahern. As I mentioned earlier, the total number of 
weapons----
    Mr. Calvert. Fully automatic weapons.
    Mr. Ahern. I have to get the breakdown, as I mentioned 
earlier, because I don't want to----
    Mr. Calvert. Is it close to zero, you think?
    Mr. Ahern. No. I think there has been some.
    Mr. Calvert. Some. But the overwhelming majority of these 
weapons that are coming into Mexico that are being used 
primarily by these drug cartels, would it be accurate to say 
they are coming from the south of the border, primarily former 
military sales?
    Mr. Calvert. I am taking this from press accounts, not from 
intelligence accounts, just from press accounts.
    Mr. Morton. I am not in a position to answer that question. 
I think the big question, as Mr. Ahern has identified, we don't 
seize a large number of weapons. The Mexicans seize weapons; 
and the question is, where did those weapons come from, and how 
did they get there?

                AIR AND MARINE OPERATIONS CENTER (AMOC)

    Mr. Calvert. Maybe in the right venue you might want to 
address that issue.
    Of the fully automatic weapons that are being used in 
Mexico at the present time by the drug cartels, where are those 
weapons coming from? I think it might be instructive to the 
committee.
    The issue that I want to bring up is the AMOC in Southern 
California. Certainly I am proud to have that in my district, 
but it has been doing, I think, a good job. As you know, it is 
the 24/7 operation center to guard America's borders. What is 
the current status and future concept for expanding the role of 
AMOC in coordinating investigations, interdictions of 
noncommercial aircraft to transport contraband, and, 
specifically, financial instruments, or cash, from the United 
States to Mexico?
    Mr. Ahern. Certainly, as far as I will speak, as the agency 
that owns the Air and Marine Operations Center (AMOC), it is a 
tremendous asset for this organization, and we are happy to 
have it in your district. There has been a lot of expansion out 
there. We now have several different agencies from the 
Government of Mexico that are actually housed in the AMOC so 
that we can actually resolve a lot of issues along our southern 
border where there is air incursion. So we are looking forward 
to continuing that relationship going forward.
    On the investigations, I will refer to our investigative 
arm within DHS, Mr. Morton, on that. But I think one of the 
issues of concern that is a substantial challenge is when we 
are actually tracking the domestic routes of aircraft in the 
United States. It is very easy to go ahead and amend a flight 
plan while in flight and then to be able to divert and head 
south. So that presents challenges for things to move south, 
whether it be money or weapons or other challenges. We need to 
find a way to go ahead and deal with that issue in a more 
effective way than we currently have thus far. That is going to 
be one of the undertakings----
    Mr. Calvert. On that, is the Mexican Government cooperating 
with you on information and technology if there is a diversion 
of the flight plan, those planes moving south? Do the Mexicans 
intercept that aircraft?
    Mr. Ahern. On some occasions, we have had some success. 
Again, having the assets, we are going to continue----
    Mr. Calvert. You say ``some.'' Is that a minority of 
occasions?
    Mr. Ahern. Infrequent occurrences, but we need to give the 
exact numbers to you. But I will tell you that we need to go 
ahead and do a better job on that because I think that is a 
gap.
    Mr. Calvert. Of the aircraft that you know is changing the 
flight path, do you typically have the tail number on that 
aircraft, where that aircraft can't be used again?
    Mr. Ahern. We would have the information of an aircraft 
tail number, yes.
    Mr. Calvert. So what typically happens to that aircraft 
once it goes into Mexico? It never comes back up here again?
    Mr. Ahern. Well, some certainly may return, and some may 
just continue with their pattern south, never to be seen again 
here in the United States. But, again, each case will stand on 
its own set of facts.
    Mr. Calvert. Mr. Morton, do you have anything to add to 
that?
    Mr. Morton. With regard to the criminal investigation or 
the question of the aircraft?
    Mr. Calvert. The question of the aircraft. And I guess I 
would ask, too, how many aircraft, say, in a year, divert 
flight path? Is it a significant number of aircraft that follow 
a flight plan and then they divert to the south?
    Mr. Ahern. I would need to get the specific number from our 
Office of Air and Marine and the AMOC folks. I don't think it 
is a substantial number, but I think even a small universe of 
that population could potentially create a challenge.
    Mr. Calvert. Thank you.
    [The information follows:]

    Rep. Calvert--In FY 2009, how many planes did CBP intercept 
that diverted from their original flight plan?
    Response: CBP Office of Air & Marine is unable to quantify 
the number of aircraft intercepted as a result of diversion 
from original flight plan. Pilots involved in illicit cross 
border activity do not file a published flight plan and the 
final destination of aircraft is unknown. Therefore, it is not 
possible to quantify the number of detection/intercept and 
identification that resulted in a diversion to an alternate 
destination. Changes in direction of flight by suspect aircraft 
occur with such frequency that this behavior alone is not a 
valid indicator of criminal activity and impossible to monitor 
nationwide.

    Mr. Price. We clearly are going to have to wrap up because 
of the votes on the floor.
    With the number of members waiting, what I am going to 
suggest is this: that we limit the question period to 2 minutes 
and that we get just as far as we can. That would mean now 
turning to Mrs. Lowey.

                         LICENSE PLATE READERS

    Mrs. Lowey. Thank you, Mr. Chairman.
    Just for the record, because you asked before, $170 million 
has been appropriated for Central America since 2008. That is 
without fiscal year 2010 money, which is not official, so I 
can't announce it. And $700 million has been appropriated to 
Mexico for the Merida account. So it is a total of $870 
million.
    I don't want to respond to my good friend, Mr. Calvert, I 
will leave that to Mr. Farr. But I just had one other question 
I wanted to address, because the testimony mentioned the 
License Plate Reader Program, which has been very successful 
with Ray Kelly in New York.
    Commissioner Ahern, I realize that in a public forum you 
are not going to tell us the exact location of the license 
plate readers, but does CBP have an adequate number to capture 
license plate information at every important crossing? And if 
not, how much does each reader cost and will the President's 
fiscal year 2011 budget request include funding to have readers 
at every important place of entry?
    Mr. Ahern. That is a lot of detail, and I will give you an 
exact answer because we do have that all as part of our office 
within field operations. But I will be happy to tell you that 
on our northbound lanes coming from Mexico into the United 
States, every single lane actually does have a license plate 
reader, coming northbound.
    As we talked to this committee in the past, one of the 
issues we were looking for was additional license plate readers 
for southbound activity. So we do not have all the lanes 
covered southbound. But beyond just deploying the license plate 
readers--again, this is something where we introduce 
technology--the same challenge falls to us on developing the 
right concept of operations. If we are collecting a license 
plate as it is within yards of going into Mexico, it does not 
provide the tactical value where you can engage at that 
particular point in time for a stolen vehicle or a lookout 
vehicle. So we need to make sure that we find ways to move the 
license plate readers further into the United States to develop 
a tactical advantage.
    We are working in the interagency process on a better plan. 
We have actually introduced license plate readers at our Border 
Patrol checkpoints again as another layer going north, as well 
as some southbound further up the highway so we can have an 
ability to predict what is coming toward us in a more 
thoughtful way. So we have a very comprehensive plan.
    And then lastly, again, thanks to this committee for 
funding the Western Hemisphere Travel Initiative because we are 
able to refresh a lot of dated technology that had been 
deployed since the license plate readers were first introduced 
into our portfolio, probably 10 years ago.
    Mrs. Lowey. Mr. Chairman, just turning to Mr. Farr, just 
for the record--they were delayed, but the five helicopters 
will be delivered in December. And if anyone wants to go to the 
celebration, I think it is December 14 in Mexico City. Colombia 
has really been amazing in providing technical assistance to 
Mexico as well.
    Thank you, Mr. Chairman.
    [The information follows:]

    Rep. Lowey--Does CBP have an adequate number of License 
Plate Readers (LPR) at every important crossing? If not, how 
much does each LPR cost and will CBP be requesting more in FY 
2011?
    Response: License Plate Readers have become part of CBP's 
overall border security strategy. Under the Western Hemisphere 
Travel Initiative (WHTI) CBP completed installation of new 
software, hardware and radio frequency identification at the 
top 39 high-volume land ports, which process 95% of land border 
crossings at over 354 inbound vehicle primary lanes. This WHTI 
technical solution included new integrated LPRs. CBP has met 
LPR requirements for inbound vehicle primary lanes.
    CBP is developing an outbound technical LPR solution at all 
110 southwest border vehicle primary lanes. This solution will 
support the Department's goal to combat drug cartel-related 
violence and the illegal export of guns and money to Mexico. 
CBP is designing multiple solution scenarios at our Government 
Test Lane Facility (mock land border port) and will begin 
testing in the spring of 2010. These technical solutions will 
be piloted at actual land border ports of entry and support 
pulse and surge outbound enforcement operations.
    License Plate Readers are recognized as fundamental 
components to all technical solutions for outbound enforcement, 
whether it is a mobile, fixed, handheld, or gantry LPR. These 
solutions are tailored to the physical characteristics of the 
outbound environment at land ports (robust, limited, and 
constricted) and the technical solution which can support it. 
CBP estimates that these additional requirements for outbound 
combined with the technical connectivity and facility 
improvements to provide a safe and secure working environment 
will average approximately $50,000 for a mobile solution per 
lane and $200,000 per lane for a robust build out solution. 
With regard to whether CBP will be requesting additional 
funding for LPRs in FY 2011, the FY 2011 Budget Request is 
under development and has not been released.

    Mr. Price. Thank you, Mrs. Lowey.
    Mr. Culberson.

                         SPENDING MERIDA MONEY

    Mr. Culberson. Thank you, Mr. Chairman.
    If I could ask the responses to be as quick as you can. I 
will ask the questions as quickly as I can.
    I understood you earlier, Commissioner Ahern, to say that 
it would be helpful if there was a plan, if the Mexicans had a 
plan as to how they were going to spend or use the Merida 
money; is that correct?
    Mr. Ahern. I think there is a plan on how they are going to 
spend the money, based on a lot of the technology. For 
instance, for the large-scale X-ray systems, we are using some 
of our procurement vehicles to help with the acquisition.
    But again my point is the experience that we have seen in 
the past in different parts of the world in drug-related 
preventive programs. There needs to be a comprehensive plan on 
how this will actually reduce the drug threat in a particular 
country, and I think that is just something we need to continue 
to improve upon.
    Mr. Culberson. On our side and on their side?
    Mr. Ahern. And certainly within the three departments that 
have leadership in this--DHS, DOJ and DOS--and then also with 
the Government of Mexico.

                       PEOPLE CROSSING THE BORDER

    Mr. Culberson. Let me ask you about the GAO report on the 
Border Patrol. They point out that the Department of Homeland 
Security--I am reading on page 5 of the report, Mr. Chairman--
Department of Homeland Security Annual Performance Report for 
Fiscal Year 2008 through 2010 sets a goal for detecting and 
apprehending 30 percent of illegal activity at ports of entry 
in 2009; which, of course, says that 70 percent, at least, is 
getting through without being caught.
    What percentage today, other than of course in the Del Rio 
and Laredo sectors, and then Yuma where you are catching and 
arresting and prosecuting 100 percent of those you do catch, 
what percentage of the people crossing the border illegally do 
you believe are actually being apprehended?
    Mr. Ahern. I don't have a good answer right now to give you 
specifics on that, but we would be happy to go ahead and give 
you some of our data by sector.
    Mr. Culberson. Thank you. Actually, that would be very 
helpful if you could by sector, and the prosecution rate for 
those that you are apprehending, because it is still 
astounding.
    [The information follows:]

    Rep. Culberson--Please provide the apprehension and 
prosecution statistics from Border Patrol for FY 2009.
    Response: FY09 Prosecutions: 60,603. FY09 Apprehensions: 
556,041.

    Mr. Culberson. We have really got to focus on that Tucson 
sector and do what we can to get streamlined up and down the 
border.
    Thank you very much.
    Mr. Price. Thank you.
    Mr. Farr.

                      FEDERALLY LICENSED FIREARMS

    Mr. Farr. I would like to just follow up on the confiscated 
weapons. We don't confiscate that much, because we don't 
inspect southbound. But how many federally licensed firearm 
stores are there along the border, how many licenses out there?
    Mr. Ahern. That would be a question that should be directed 
to ATF.
    Mr. Farr. And gun shows as well?
    Mr. Ahern. I would say that, again----
    Mr. Farr. The figures I have are 7,000 licensed firearm 
dealers along the border. That is a good percentage of all in 
the country; 5,000 gun shows along the border. In your working 
this new relationship with the ATF, is there an effort here to 
prevent proxy purchases from Federal firearm licensed dealers?
    Mr. Morton. The short answer to your question is no from 
ICE's perspective, because we have no statutory authority at 
all for Federal Firearms Licenses for licensees. Our authority 
that we bring to bear in the trafficking is we do have broad 
authority to prosecute the illegal export, but----
    Mr. Farr. Last year, ICE testified that they had a 
difficult problem because the administrative regs would only 
allow one unannounced inspection in any of these licensed 
entities or gun shows, only one a year. And if personnel 
weren't doing it, then ICE couldn't go and do any inspection 
even on follow-up. So it just cramped their ability to follow 
up on some of these leads that they had. Has that been worked 
out?
    Mr. Morton. I don't think so. But I also don't think that--
I think your point is that ATF's authority is limited to one a 
year, and I think that is right.
    Mr. Farr. We have some real problems. We are not doing 
proxy purchases, we are not doing the inspections frequent 
enough. We ought to reinstate the assault weapons ban.
    I do have the records from the Mexican Government; 93 
percent of all the weapons seized--they seized them all over 
the country--whereas weapons from the United States, the 
majorities were along the border, the northern border. Most of 
the things they seized along the southern border were grenades 
and things coming up out of Central America.
    So this really is a U.S. problem, and I think we ought to 
own up to it and not try to dismiss it; that we are not part of 
this gun-smuggling cartel that is going on and using our side 
of the border.
    Mr. Culberson. Mr. Chairman, one follow-up, very quickly.
    Mr. Price. Very quickly.
    Mr. Culberson. Very quickly, do you know what percentage of 
federally licensed firearm dealers in the United States are in 
violation of the law? Have you ever talked to ATF, or----
    Mr. Morton. I haven't. I don't know if----
    Mr. Culberson. I asked that question in our other 
subcommittee, and they said, Sam, it was about a little less 
than 1 percent. So it is really not the licensed gun dealers 
that are the problem, and it is not evident at the gun shows 
either.
    Mr. Price. We clearly have some deficiencies in data and 
some differences in information. I am going to formulate a 
request for the record.
    I don't think there is any question that CBP has recorded 
about 79 incidents of southbound smuggling of firearms and 
ammunition since March. And as Mr. Farr says, there are many, 
many incidents of confiscation on the Mexican side, far 
exceeding what we detect by southbound inspections.
    So we are going to ask of you your best estimates here. We 
have had a lot of figures and characterizations thrown back and 
forth, so we are going to ask you to do the best job, in 
cooperation with ATF, to give us an estimate of the volume of 
weapons and ammunition moving south to Mexico from the U.S., 
some estimate, if you can provide it, of what percentage of the 
whole that is, the types of weaponry that are involved, and 
then of course any suggestions that you have or any discussions 
you have underway about how our government can make it more 
difficult for smugglers to acquire weapons for the cartels. 
Presumably we all want to see that carried out, even though we 
may have somewhat different assessments of the scale of the 
problem. So we will be formulating a request for that 
information for the record.

                   FEDERALLY LICENSED FIREARMS CONT.

    Mr. Culberson. Mr. Chairman, could we also ask them to tell 
us what percentage of the guns they are seizing were obtained 
legally through licensed Federal firearm dealers or illegally? 
Can they be traced?
    Mr. Price. Of course that would be valuable information, if 
that is obtainable.
    With that, we do need to adjourn for the votes on the 
floor. I want to thank all three of you for your good work and 
for your testimony here today. This is a hearing, obviously, 
that is a follow up from last spring. And believe me, as the 
budget season approaches, we will be talking more about the 
subjects raised here today. We thank all of you.

[GRAPHIC] [TIFF OMITTED] T5704A.039

[GRAPHIC] [TIFF OMITTED] T5704A.040

[GRAPHIC] [TIFF OMITTED] T5704A.041

[GRAPHIC] [TIFF OMITTED] T5704A.042

[GRAPHIC] [TIFF OMITTED] T5704A.043

[GRAPHIC] [TIFF OMITTED] T5704A.044

[GRAPHIC] [TIFF OMITTED] T5704A.045

[GRAPHIC] [TIFF OMITTED] T5704A.046

[GRAPHIC] [TIFF OMITTED] T5704A.047

[GRAPHIC] [TIFF OMITTED] T5704A.048

[GRAPHIC] [TIFF OMITTED] T5704A.049

[GRAPHIC] [TIFF OMITTED] T5704A.050

[GRAPHIC] [TIFF OMITTED] T5704A.051

[GRAPHIC] [TIFF OMITTED] T5704A.052

[GRAPHIC] [TIFF OMITTED] T5704A.053

[GRAPHIC] [TIFF OMITTED] T5704A.054

[GRAPHIC] [TIFF OMITTED] T5704A.055

[GRAPHIC] [TIFF OMITTED] T5704A.056

[GRAPHIC] [TIFF OMITTED] T5704A.057

[GRAPHIC] [TIFF OMITTED] T5704A.058

[GRAPHIC] [TIFF OMITTED] T5704A.059

[GRAPHIC] [TIFF OMITTED] T5704A.060

[GRAPHIC] [TIFF OMITTED] T5704A.061

[GRAPHIC] [TIFF OMITTED] T5704A.062

[GRAPHIC] [TIFF OMITTED] T5704A.063

[GRAPHIC] [TIFF OMITTED] T5704A.064

[GRAPHIC] [TIFF OMITTED] T5704A.065

[GRAPHIC] [TIFF OMITTED] T5704A.066

[GRAPHIC] [TIFF OMITTED] T5704A.067

[GRAPHIC] [TIFF OMITTED] T5704A.068



                           W I T N E S S E S

                              ----------                              --
--------
                                                                   Page
Ahern, Jayson P..................................................    26
Morton, John.....................................................    38
Silver, Mariko...................................................    15


                               I N D E X

                              ----------                              --
--------

             CONFRONTING THE CARTEL: ADDRESSING U.S.-MEXICO
                            BORDER SECURITY

                                                                   Page
Opening Statement of Chairman David Price........................     1
Opening Statement of Ranking Member Harold Rogers................     8
Statement of Mariko Silver, Deputy Assistant Secretary for 
  International Policy, Department of Homeland Security..........    15
Statement of Jayson Ahern, Acting Commissioner, U.S. Customs and 
  Border Protection..............................................    26
Statement of John Morton, Assistant Secretary for U.S. 
  Immigration and Customs Enforcement............................    38
Additional CBP Air Support.......................................    97
Air and Marine Operations Center (AMOC)..........................    80
Amend Federal Gun Laws...........................................    59
Automatic and High-Caliber Weapons...............................    79
Border Area Drug and Cash Seizures...............................    93
Border Fencing...................................................    63
Border Still Not Secure..........................................    57
Border Technology................................................   107
Budget Coordination with Justice Department......................    66
CBP & ICE-Weapons Seizure Data/Issues............................   102
Challenges in Central and Latin America..........................    73
Combating Violence at the Southwest Border.......................   111
Controlled Substance Project.....................................   101
Coordination with Law Enforcement Agencies.......................    69
Coordination with National Parks.................................   105
Correlating Budget Increase to Success...........................    68
Correlation Between Influx of Legal Mexican Nationals and Crime..    55
Deployment of BESTs..............................................    61
DHS Cooperation with DOJ for Budget Requests.....................   111
Drop in Crime Rate...............................................    64
Drug Cartels.....................................................    56
Federally Licensed Firearms......................................    84
How 2010 Funding Will be Used to Address SW Border Issues........    98
ICE's Cooperation with DEA and ATF...............................   108
ICE-Detention Issues.............................................   103
Intensifying Cartel Violence in Mexico...........................    91
International Prosecution of Fraudulent Gun Purchasers...........    97
JIATF Along Southwest Border.....................................    76
Lack of Trust with Mexico Still Exists...........................    53
Legalization in Mexico and its Impacts...........................   106
License Plate Readers............................................    81
Merida Initiative................................................72, 91
Multi-Agency Cooperation at the Border...........................   113
Non-Intrusive Inspection Technology..............................   100
Oasis Program....................................................    71
Open Source Information..........................................   106
Operation Streamline.............................................    64
Origin of Weapons in Mexico......................................    58
People Crossing the Border.......................................    83
Questions for the Record Submitted by Chairman David Price.......    88
Questions for the Record Submitted by Ranking Member Harold 
  Rogers.........................................................   102
Questions for the Record Submitted by the Honorable Alan Molloh108, 111
Questions for the Record Submitted by the Honorable Ciro D. 
  Rodriguez......................................................   105
Questions for the Record Submitted by the Honorable Sam Farr.....   113
Safe Effective Deployment of CBP Agents..........................    51
Spending Merida Money............................................    83
Spillover Violence...............................................    52
Strategy to Address Roots of Cartel Authority and Build Mexican 
  Capacity.......................................................    88
Successful Prosecutions of Fraudulent Gun Purchasers.............    95
Tackling Southbound Flow of Drugs................................    60
Targeting the Cartels............................................    93
Terrorists Apprehended by Border Patrol..........................    65
Thresholds for Determining Prosecution...........................    65
Transporting Illegal Immigrants Through Texas....................    54
U.S.-Mexico Partnership to Combat Cartels........................    51
Violence Remains Unabated in Mexico, Yet Little Spills into the 
  United States..................................................    92
Weapons Seizures From the United States to Mexico................    74
Working Relationship Between ICE and ATF.........................    95

                                  <all>

</pre></body></html>
